U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                        Management of Immigration 

                         Cases and Appeals by the 

                           Executive Office for 

                           Immigration Review 

                                      October 2012




                                      I-2013-001
                                EXECUTIVE DIGEST 



INTRODUCTION

      The Office of the Inspector General (OIG) conducted a review to
examine the Department of Justice’s (Department) Executive Office for
Immigration Review (EOIR) processing and management of immigration
cases and appeals involving foreign-born individuals (aliens) charged
with violating immigration laws. Among other duties, EOIR courts are
responsible for determining whether aliens charged by the Department of
Homeland Security (DHS) with immigration violations should be ordered
removed from the United States or be granted relief from removal, which
would allow them to remain in this country.1

RESULTS IN BRIEF

      The OIG found that immigration court performance reports are
incomplete and overstate the actual accomplishments of these courts.
These flaws in EOIR’s performance reporting preclude the Department
from accurately assessing the courts’ progress in processing immigration
cases or identifying needed improvements.

      For example, administrative events such as changes of venue and
transfers are reported as completions even though the immigration
courts have made no decisions on whether to remove aliens from the
United States. As a result, a case may be “completed” multiple times. In
our sample of 1,785 closed cases, 484 administrative events were
counted as completions by EOIR. Reporting these administrative actions
as completions overstates the accomplishments of the immigration
courts.2 Similarly, those same administrative events result in a case

        1 Removal is the expulsion of a person from the United States who is not a

U.S. citizen and is more commonly referred to as “deportation.” In formal proceedings,
“deportation” was changed to “removal” by the Illegal Immigration Reform and Immigrant
Responsibility Act of 1996. The Department of Homeland Security alleges an alien is
removable when the alien does not have legal grounds to be in the United States
because, for example, the alien stayed longer than the alien’s visa allowed or committed
a crime while in the United States.

        2 EOIR stated that it measures completions in this way so that it has a precise

measurement of an individual court’s work. While there may be legitimate management
decisions for tracking the completion rates for each individual court, we believe that the
way EOIR externally reports these actions is confusing because it appears to be
reporting on the time it takes to substantively complete cases. Moreover, a court’s
decision to transfer a case to another court or another venue for handling does nothing
                                                                                    (Cont.)

U.S. Department of Justice                                                                i
Office of the Inspector General
Evaluation and Inspections Division
being reported as a “receipt” when the case is opened at the receiving
court.3 As a result, the same case may be reported as a “receipt”
multiple times, thereby overstating the total number of cases opened by
the immigration courts during a particular period.4

       Further, for those cases where EOIR has put in place a timeliness
goal for handling a case, EOIR does not report the total time it takes to
complete the case. Instead, EOIR tracks case processing time by court.
As a result, a case with a timeliness goal of 60 days that spent 50 days at
one court and was then transferred to another court, where it spent
another 50 days, would be reported by EOIR as two cases that were each
completed within the 60-day timeliness goal. In actuality, there was only
one case, and that case took EOIR 100 days to reach a decision on
whether the alien should be removed, thereby exceeding the 60-day goal.
This practice makes it appear that more cases meet the completion goals
than actually do.

       Additionally, in January 2010, EOIR abandoned completion goals
for cases involving non-detained aliens who do not file asylum
applications, which make up about 46 percent of the courts’
completions.5 EOIR made this decision to prioritize and focus on the
completion of detained cases, in which aliens are deprived of their liberty
and housed at taxpayer expense. While the OIG recognizes the
importance of the timely completion of cases involving detained aliens,
EOIR also should have goals for the timely processing of non-detained
cases.


to advance the case towards completion. Yet, EOIR’s statistical system rewards the
transferring court by giving it credit for closing the case, which we do not believe
provides an accurate measure of “completion” rates. Further, we believe there is an
important management need for EOIR to track the time it takes to complete a single
case from start to finish.

       3 “Receipts” are defined by EOIR as the total number of proceedings, bond

redeterminations, and motions to reopen or reconsider received by the immigration
courts during a reporting period. Our review included only proceedings receipts.

        4 Because cases are often completed in a fiscal year different from the one in

which they are “received,” it is not possible to determine how the figures impact the
fiscal year data produced by EOIR.

        5 This 46 percent is based on FY 2010 proceedings completion data from the

EOIR Statistical Year Book. The balance of the courts’ proceedings are detained
proceedings, asylum proceedings, and credible fear determination hearings (hearings
held to review DHS determinations that aliens’ fears of persecution or torture if they are
removed were not credible), which have goals.


U.S. Department of Justice                                                               ii
Office of the Inspector General
Evaluation and Inspections Division
       Despite overstating case receipts and completions, EOIR’s
immigration court data still showed that it was not able to process the
volume of work. From FY 2006 through FY 2010, the overall efficiency of
the courts did not improve even though there was an increase in the
number of judges. In 4 of those 5 years, the number of proceedings
received was greater than the number of proceedings completed. As a
result, the number of pending cases increased.

      Our analysis of a sample of closed cases showed that cases
involving non-detained aliens and those with applications for relief from
removal can take long periods to complete. This results in crowded court
calendars and delayed processing of new cases. For example, cases for
non-detained aliens took on average 17½ months to adjudicate, with
some cases taking more than 5 years to complete.

       In addition to the volume of new cases, the number and length of
continuances immigration judges granted was a significant contributing
factor to case processing times. In the 1,785 closed cases we examined,
953 cases (53 percent) had one or more continuances. Each of these
cases averaged four continuances. The average amount of time granted
for each continuance was 92 days (about 3 months), which results in an
average of 368 days for continuances per case.

       In contrast, the EOIR’s Board of Immigration Appeals (BIA)
completed more appeals of immigration court decisions than it received
from FY 2006 through FY 2010. Appeals involving non-detained aliens,
however, still took long periods to complete. In our sample, the BIA
averaged more than 16 months to render decisions on cases involving
non-detained aliens, as compared to 3½ months for cases involving
detained aliens. However, EOIR’s performance reporting does not reflect
the actual length of time to review and decide those appeals because
EOIR does not count processing time for one- and three-member reviews
from the date the appeal was filed. Rather, EOIR begins the counting
process once certain work is completed by the BIA and/or its staff. As a
result, EOIR’s performance reporting data underreports actual
processing time, which undermines EOIR’s ability to identify appeal
processing problems and take corrective actions.

RECOMMENDATIONS

      In this report, we make nine recommendations to help EOIR
improve its case processing and provide accurate and complete
information on case completions. They include for EOIR to collect
immigration court data that distinguishes decisions on the removal of


U.S. Department of Justice                                              iii
Office of the Inspector General
Evaluation and Inspections Division
aliens from other case activities, that reflects actual case length even
when more than one court is involved, and that eliminates case
exemptions from completion goals. In addition, EOIR should develop
immigration court case completion goals for non-detained cases in which
an asylum application has not been filed. To reduce lengthy delays,
EOIR should analyze reasons for continuances and develop guidance
that provides immigration judges with standards and guidelines for
granting continuances. To better allocate its resources, EOIR should
develop a process for tracking the time that immigration judges spend on
different types of cases and work activities; collect and track data on its
use of staffing details of judges; and develop an objective staffing model
to assist in determining staffing requirements and the allocation of
positions among immigration courts. Lastly, EOIR should seek
additional resources, or reallocate existing resources, in order for BIA to
more timely process appeals for non-detained aliens and improve the
collection, tracking, and reporting of appeal statistics to accurately reflect
actual appeal processing times.




U.S. Department of Justice                                                  iv
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS 



 Background ...................................................................................... 1

                                                                                                     

 Scope and Methodology of the OIG Review ...................................... 11

                                                                                   

 Results of the Review ...................................................................... 13

                                                                                                 

     Section I. The Immigration Courts ............................................. 13

                                                                                        

     Section II. The Board of Immigration Appeals ............................ 41

                                                                                  

 Conclusion and Recommendations.................................................. 51

                                                                                     

 Appendix I: Immigration Court Process .......................................... 54

                                                                                     

 Appendix II: Board of Immigration Appeals Process ........................ 55

                                                                               

 Appendix III: OIG Sample of Closed Cases at the 

     Immigration Courts.................................................................. 56

                                                                                             

 Appendix IV: Pending Caseload at the Immigration Courts ............. 59

                                                                          

 Appendix V: EOIR Response to Draft Report................................... 60

                                                                                 

 Appendix VI: OIG Analysis of EOIR Response ................................. 70

                                                                                 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                        BACKGROUND 



      The Office of the Inspector General (OIG) conducted a review to
examine the Department of Justice’s (Department) Executive Office for
Immigration Review (EOIR) processing and management of immigration
cases and appeals involving foreign-born individuals (aliens) charged
with violating immigration laws.

      EOIR, headed by a Director who reports directly to the Deputy
Attorney General, has three primary adjudicating components:

               	 Office of the Chief Immigration Judge, which includes the
                  immigration courts that conduct hearings in response to cases
                  filed by the Department of Homeland Security (DHS) to
                  determine whether aliens should be ordered removed from the
                  United States or be granted relief from removal, which would
                  allow them to remain in this country;

               	 Board of Immigration Appeals (BIA), which decides appeals of
                  immigration court decisions, among other matters; and

               	 Office of the Chief Administrative Hearing Officer, which
                  adjudicates cases involving employment of undocumented
                  workers, verification of employment eligibility, immigration-
                  related document fraud, and immigration-related employment
                  discrimination.6

     EOIR’s fiscal year (FY) 2012 budget was $302.3 million, with an
authorized staffing level of 1,582 positions.

Office of the Chief Immigration Judge and the Immigration Courts

      The Office of the Chief Immigration Judge establishes overall
program direction, policies, procedures, and priorities for judges
conducting hearings on alien removals and other matters in immigration
courts.

      The Office of the Chief Immigration Judge oversees 59 immigration
courts with approximately 120 additional hearing locations, including

           6   Our review did not include the Office of the Chief Administrative Hearing
Officer.


U.S. Department of Justice                                                                 1
Office of the Inspector General
Evaluation and Inspections Division
detention centers and correctional facilities.7 As of the beginning of
FY 2011, the courts were staffed by 238 immigration judges (284 were
authorized) and 553 support personnel (709 were authorized).8
Immigration judges are attorneys appointed by the Attorney General to
serve as independent arbiters of immigration issues.9 The judges are
responsible primarily for hearing cases to decide whether aliens should
be removed from the United States.10

      According to EOIR’s data, in FY 2010, the courts received a total of
325,326 proceedings and completed a total of 287,207 proceedings.11
EOIR told the OIG that it anticipates that the courts’ caseloads, and
therefore their volume of proceedings, will continue to increase in the
future as a result of expanded DHS enforcement actions.

Removal Proceedings

Role of the Department of Homeland Security

      Through its law enforcement activities, the DHS locates aliens it
determines are in the United States illegally and thus may be removable.
The DHS serves the alien with a charging document (notice to appear),
which orders the alien to appear before an immigration judge to show

       7 EOIR may open or close an immigration court depending on the volume of the

caseload in that particular area.

       8  Beginning in January 2011, EOIR has been under a Department-wide hiring
freeze, which has impeded the hiring of judges and staff to fill authorized positions.

       9 All immigration judges are career Schedule A appointees and are compensated
under the IJ pay system that varies by locality. The 2011 base annual salary range was
$108,850 to $143,060 without locality adjustments. In 2011 annual pay was capped at
$165,300.

       10 In addition to hearing cases, immigration judges consider other matters such
as bond redetermination (bond) hearings and motions. Bond hearings are held when
detained aliens ask to be released on their own recognizance or to have the amount of
their bond reduced. Motions can be filed by either party (the alien or the DHS),
including, for example, to reopen a case previously heard by an immigration judge due
to changed circumstances. In FY 2010, the courts received a total of 52,660 bond
redetermination requests and 14,902 motions. During the same period, the courts
completed a total of 51,141 bond redetermination requests and 14,899 motions.

       11 A proceeding includes any action taken on a case at a particular immigration
court. When a case is processed at multiple courts, there are multiple proceedings
associated with that case. All of the proceedings together make up an alien’s
immigration case.


U.S. Department of Justice                                                         2
Office of the Inspector General
Evaluation and Inspections Division
why the alien should not be removed, and includes the following
information:

          the Immigration and Nationality Act provisions that subject the
           alien to removal;
          the alien’s option to obtain representation at no expense to the
           government; and
          the date, time, and location of the initial hearing, if scheduled
           by the DHS.

       The DHS serves the alien with the notice to appear in person or by
mail if unable to do so in person. When the DHS serves the alien in
person, it may provide oral notice in a language the alien understands of
the hearing’s time and place and the consequences if the alien does not
appear. Along with the notice to appear, the DHS provides the alien with
a list of organizations and attorneys that provide free legal services.
Often the DHS does not schedule the initial hearing, and the notice to
appear will not specify the date, time, and location of the initial hearing.

       After the alien has been served, the DHS files a copy of the notice
to appear with the immigration court (which is determined by the alien’s
location). Once the notice to appear is filed with the court, the
immigration court is vested with jurisdiction to decide whether the alien
violated immigration laws and whether to order the alien’s removal from
the United States. If the DHS has not scheduled the initial hearing, the
immigration court schedules the hearing and notifies the parties of the
hearing’s time and place. DHS attorneys represent the DHS’s position in
cases before the immigration judges and in appeals before the BIA.

The Immigration Court Process

      The immigration court removal process generally involves an initial
master calendar hearing and subsequent master and individual merits
hearings (described below). An alien found to be removable by an
immigration judge may seek to remain in the United States by applying
for one or more types of relief from removal. Immigration judges may
conduct hearings in person at the immigration court or by telephone or
videoconference.

       Master Calendar Hearing. An immigration judge conducts a
master calendar hearing to advise the alien of the purpose of the removal
proceeding and of the alien’s rights, and ensure the alien understands
the allegations and charges. The judge also provides information
regarding reduced-fee or free (pro bono) representation from

U.S. Department of Justice                                               3
Office of the Inspector General
Evaluation and Inspections Division
non-government sources and informs the alien that the alien must
respond to the charges and present any applications for relief from
removal.12

      If the case is not complex or the alien admits to being in the
United States illegally and does not ask for relief from removal to remain
in the country, and the alien is represented or waives the opportunity to
seek representation, the immigration judge may make a final decision at
the master calendar hearing about whether the alien will be removed.
When that does not happen, the alien or the DHS attorney may request a
continuance, and if the judge grants it, another master calendar hearing
or an individual merits hearing is set.13 The judge may extend the
scheduled hearing date several times before examining contested matters
or applications for relief.

      Individual Merits Hearing. Individual merits hearings are
evidentiary hearings to decide contested matters, that is, aliens’
challenges to being removable and aliens’ applications for relief.
Generally, the DHS bears the burden of proving by clear and convincing
evidence that an alien is removable, but the alien may challenge
removability. When the alien applies for relief from removal, the burden
of proof rests with the alien. During a single case, a judge may
reconvene over time multiple merits hearings as a result of continuances
and scheduling conflicts to review evidence and hear testimony.

       After the evidence is presented, the judge renders a decision on the
alien’s removability. If removability of the alien is not established, the
immigration judge may order the proceedings terminated. If the judge
finds the alien to be removable and the alien applies for relief from
removal, the judge must determine whether to grant relief that would
allow the alien to remain in the United States. The judge informs the
alien of the right to appeal adverse determinations.


        12 Aliens in immigration court proceedings do not have a right to government-

provided representation. However, they are given the opportunity to obtain
representation (such as attorneys, law students, family members, and representatives
from recognized charitable organizations) at their own expense. According to EOIR’s
FY 2010 data, aliens were represented in 122,465 (43 percent) proceedings of 287,207
total proceedings completed.

        13 An alien may request a continuance for a number of reasons, including time

to obtain representation, time to gather evidence, or for a change of venue to a different
immigration court. The DHS attorney may request a continuance for reasons including
preparation of evidence or completion of a DHS investigation.


U.S. Department of Justice                                                           4
Office of the Inspector General
Evaluation and Inspections Division
      See Appendix I for a flow chart that illustrates the immigration
court process.

Types of Immigration Cases

       Immigration courts process five principal types of cases:

       1.	 Detained Without Applications for Relief from Removal: Cases
           involving aliens who are in DHS custody during the
           immigration court process. These aliens do not apply for relief
           if they are found removable. Aliens may be detained because
           of their involvement in criminal activities.14

       2.	 Detained With Applications for Relief from Removal: Cases
           involving aliens in DHS custody who, if they are found
           removable, apply for relief (other than asylum) from the order
           of removal so that they may legally reside in the United States.

       3.	 Asylum: Cases involving aliens who have applied for asylum
           because they fear, or have suffered, harm in their native
           countries. If judges deny their claims for asylum, the aliens
           are ordered to be returned to their home countries.15

       4.	 Non-Detained Without Applications for Relief from Removal:
           Cases involving aliens who are not in DHS custody during the
           immigration court process and who do not request relief from
           removal.

       5.	 Non-Detained With Applications for Relief from Removal: Cases
           involving aliens not in DHS custody who, if they are found
           removable, apply for relief (other than asylum) from the order
           of removal so that they may legally reside in the United States,
           or have removal deferred.

       Aliens may be detained for all or part of the duration of their cases.

       14 Under the Immigration and Nationality Act, the government is required to
detain certain aliens who pose a national security risk or commit crimes in the
United States, including crimes involving moral turpitude, drug smuggling, murder, and
other aggravated felonies.

        15 Aliens in the United States may make a claim for asylum because of

persecution based on race, religion, nationality, membership in a particular social
group, or political opinion. Generally, aliens must apply for asylum within 1 year of
arriving in the United States.


U.S. Department of Justice                                                          5
Office of the Inspector General
Evaluation and Inspections Division
Immigration Court Case Completion Goals

      EOIR assesses its case processing performance based on how
timely various types of cases are completed (see Table 1).16 EOIR does
not have outcome measures for its cases, such as an increase in the
number of final removal orders or grants of relief because, as an
impartial body that decides immigration cases, it cannot have quotas to
meet. Each case is to be decided on its own merits.

       Beginning in January 2010, EOIR abolished its case completion
goals for cases involving non-detained aliens, except when the aliens
seek asylum and therefore are counted under EOIR’s completion goal for
asylum cases.17 According to EOIR, it discontinued the goals to help the
immigration courts focus more on the highest priorities – namely, cases
involving aliens who are detained during their proceedings. EOIR also
reset the goals for detained cases by establishing one goal that does not
distinguish between cases with and without relief applications.




       16 We evaluated EOIR’s adjudication of removal cases, except Institutional
Hearing Program cases because these cases involve aliens serving sentences in prison
for criminal convictions. We did not examine bond or credible fear determination
hearings because they are not removal hearings, although EOIR has established
completion goals for these types of matters.

       17  According to 8 U.S.C. § 1158(d)(5)(A)(iii) (2011) (corresponds to INA
§ 208(d)(5)(A)(iii)), in the absence of exceptional circumstances, the final adjudication of
asylum applications must be completed within 180 days after the application is filed.


U.S. Department of Justice                                                             6
Office of the Inspector General
Evaluation and Inspections Division
         Table 1: EOIR’s 2009 and 2010 Case Completion Goals
                      for the Immigration Courts
                                            2009 Goals                  2010 Goals
                                        Time       Percentage      Time        Percentage
           Type of Case                 Goal          Goal         Goal           Goal
  Detained
     Without applications for
                                       30 days         90%
     relief from removal
     With applications for relief                                 60 days         85%
     from removal other than          120 days         90%
     asylum
  Asylum (detained or non-                                          180
                                      180 days         90%                        90%
  detained)                                                         days
  Non-Detained
     Without applications for
                                      240 days         90%                 Abolished
     relief from removal
     With applications for relief
     from removal other than          240 days         60%                 Abolished
     asylum
   Notes: EOIR has established goals for other matters that are outside the

   scope of our review. The goals in the table are for the five principal types of

   cases. 

   The percentage goals are the proportions of a particular type of case that are

   to meet the time goals for that type of case.

   Source: EOIR Reports on Case Completion Goals: FY 2010 1st Quarter and 2nd
   Quarter.

      EOIR monitors the performance of the immigration courts in
meeting the case completion goals in internal quarterly reports. The
immigration courts’ success in meeting the goal for detained cases has
been identified as an adjudication priority and is published in the
Department’s annual Performance and Accountability Report and
congressional budget submission.

The Board of Immigration Appeals

       Once an immigration judge renders a decision, both the alien and
the DHS have the right to appeal that decision to the BIA. The majority
of appeals received by the BIA involve orders of removal and applications
for relief from removal.18 The BIA is directed by a Chairman and is


        18 The BIA also reviews cases involving petitions to classify the status of alien

relatives for the issuance of preference immigrant visas, fines imposed upon
                                                                                      (Cont.)
U.S. Department of Justice                                                              7
Office of the Inspector General
Evaluation and Inspections Division
staffed with board members who adjudicate appeals, staff attorneys who
assist board members, and support staff at EOIR’s headquarters in Falls
Church, Virginia.19 In FY 2010, the BIA was authorized 175 attorney
positions, including 15 board members, of which 166 were filled as of
September 30, 2010. The BIA also was authorized 131 support staff
positions, of which 104 were filled as of September 30, 2010. Overall,
BIA’s authorized staffing increased approximately 20 percent from
FY 2006 to FY 2010. In FY 2010, the BIA received 15,556 appeals of
immigration judge case decisions, which is 23 percent less than it
received in FY 2006. Also in FY 2010, it completed 16,069 appeals of
immigration judge case decisions, which is almost 32 percent less than it
completed in FY 2006.

      Generally, the BIA does not conduct courtroom proceedings –
board members decide appeals by reviewing briefs submitted by the
parties, along with the immigration court case files and transcripts. On
rare occasions, board members hear oral arguments. A single board
member decides the appeal unless it falls into one of six categories that
require a decision by a panel of three board members.20 The BIA may, by
majority vote or by direction of the BIA Chairman, assign a case for
review by all of the board members (an en banc review).21

The BIA Process

       The BIA appellate review process begins when an alien or the DHS
appeals an immigration judge’s decision. The BIA’s clerk’s office receives
the appeal or motion, assembles the materials for BIA review, and sets
briefing schedules. Paralegals and staff attorneys review the appeal. The
attorneys or paralegals prepare a draft decision order on the case’s

transportation carriers for the violation of immigration laws, and motions for reopening
and reconsidering decisions.

       19  The BIA Chairman is a career Senior Executive Service position, with a salary
range of $119,554 to $179,700. The board member positions are career Schedule A
positions, with a salary range of $119,554 to $165,300.

       20  These categories are the need to: (1) settle inconsistencies among the rulings
of different immigration judges; (2) establish a precedent construing the meaning of
laws, regulations, or procedures; (3) review a decision by an immigration judge that is
not in conformity with the law or with applicable precedents; (4) resolve a case of major
national import; (5) review a clearly erroneous factual determination by an immigration
judge; or (6) reverse the decision of an immigration judge in a final order, other than
nondiscretionary dispositions.

       21   8 C.F.R. § 1003.1(a)(5).


U.S. Department of Justice                                                          8
Office of the Inspector General
Evaluation and Inspections Division
merits and initially assess whether the case should be reviewed by a
single board member, three-member panel, or, in rare cases, recommend
en banc review. Board members review the draft decision orders and
may accept them, direct that they be modified, or decline them.

      The BIA may issue an affirmance of the immigration judge’s
decision with or without an opinion. An affirmance without opinion,
which does not contain the BIA’s explanation or reasoning for approving
the decision, is required when the case meets the criteria of 8 C.F.R.
§ 1003.1(e)(4)(i). The BIA may also modify, reverse, or remand a case to
the immigration court for further consideration.

       See Appendix II for a flow chart that illustrates the appeal process.

        If the BIA rules against an alien, the alien may appeal the case to
the appropriate U.S. Court of Appeals (Court of Appeals). The
Department’s Office of Immigration Litigation represents the United
States before the Court of Appeals, and the alien may obtain his or her
own representation. The DHS cannot appeal the BIA’s ruling to the
Court of Appeals, but may seek the Attorney General’s review. The
Attorney General may vacate the decision of the BIA and issue his or her
own decision. A BIA decision is the final administrative decision in the
matter, unless it is stayed, modified, rescinded, or overruled by the BIA
itself, the Attorney General, or a Court of Appeals.

BIA Completion Goals for Cases on Appeal

      Like the immigration courts, EOIR has goals for the BIA to
complete percentages of the appeals it reviews within specific timeframes.
Two of the goals are derived from 8 C.F.R. § 1003.1(e)(8)(i): those
pertaining to appeals (regardless of the aliens’ detention status)
undergoing review by one or three board members. An additional goal
established by EOIR pertains to detained appeals. Appeals involving
detained aliens are measured twice: once under either the one- or three-
member review timeline and again under the detained alien case
timeline. (See Table 2.)




U.S. Department of Justice                                              9
Office of the Inspector General
Evaluation and Inspections Division
                 Table 2: EOIR’s 2010 Completion Goals
                  for the Board of Immigration Appeals
                                                   Time       Percentage
                      Type of Review
                                                   Goal          Goal
              One-member decision                 90 days        100%
              Three-member decision               180 days       100%
              Detained alien decision             150 days        90%

               Notes: The percentage goals are the proportions of
               appeals that are to meet the time goals for that type of
               review.
               In FY 2007, the EOIR goal for detained appeals was
               reduced from 180 days to 150 days.
               Source: EOIR Report on Case Completion Goals:
               FY 2010 2nd Quarter.

       EOIR tracks the performance of the BIA in meeting the completion
goals in internal quarterly reports. The BIA’s success in meeting the goal
for detained appeals has been identified as an adjudication priority and
is published in the Department’s annual Performance and Accountability
Report and congressional budget submission.




U.S. Department of Justice                                                 10
Office of the Inspector General
Evaluation and Inspections Division
            SCOPE AND METHODOLOGY OF THE OIG REVIEW 



      Our review examined the processing and management of removal
cases in the immigration courts and of appeals of immigration judge
removal decisions at the Board of Immigration Appeals. We limited our
review to cases initiated by the Department of Homeland Security
because these cases are the majority of EOIR’s caseload at both the
immigration courts and the BIA. We did not review the processing of
cases by EOIR’s Office of the Chief Administrative Hearing Officer, which
adjudicates a small number of cases primarily related to employer
sanctions that are unrelated to the removal caseload.

     We conducted field work at EOIR Headquarters, the BIA, and three
immigration courts: Arlington, Virginia; New York, New York; and
Chicago, Illinois.

       We reviewed applicable laws, regulations, policy, and written
procedures related to EOIR. We attended hearings at the immigration
courts and the BIA and interviewed appropriate personnel at the
locations visited. We also examined EOIR files, operational and
administrative reports, and databases, which included automated case
information.

       We reviewed EOIR’s public and internal reporting regarding
caseloads and goal accomplishments for both the immigration courts and
the BIA. We used a limited amount of this aggregated data to present
overall trends, but we used individual cases and appeals to analyze case
characteristics and processing times.22 We did not rely on EOIR’s
performance reports in our analyses of the courts’ or the BIA’s ability to
efficiently process cases or appeals because we found the data to be
inaccurate (as discussed in Section I of the Results of the Review).23 The

        22 We used EOIR’s publicly available Statistical Year Books and internal

Director’s Monthly Reports to analyze trends from FY 2006 through FY 2010 for the
immigration courts’ and the BIA’s aggregated completed, received, and pending cases.
These reports track data for the immigration courts by proceeding. A proceeding is all
legal action taken on a case at a particular immigration court, excluding bond
redeterminations and motions. All of the proceedings together make up an alien’s
immigration case.

       23  EOIR established a working group in September 2011 to review the data it
collects, assess its accuracy, analyze whether it clearly presents information, and
determine whether more data should be collected and reported. In July 2012, the head
of the working group informed the OIG that the review was completed. She advised the
                                                                                    (Cont.)
U.S. Department of Justice                                                          11
Office of the Inspector General
Evaluation and Inspections Division
problems we identified in the aggregated data did not affect our analysis
of individual cases and appeals.24

      To determine case processing times, we obtained EOIR data
elements for a random sample of 1,785 cases that were closed during
calendar year 2009 at 10 immigration courts. We selected these 10
courts because they represented a diverse mix in terms of size (as
measured by the number of immigration judges at each court),
geographical diversity, and because they collectively handle a wide
spectrum of case types. For further information on the sample of closed
cases, see Appendix III.

      To determine characteristics of the immigration courts’ pending
caseload, EOIR provided us with 252,925 cases that were pending on
August 3, 2010. According to EOIR, these were all of the cases pending
at the immigration courts on that date. For further information on the
pending cases, see Appendix IV.

      To analyze the BIA’s case review process, we reviewed a sample of
23 appeals closed between January 2011 and May 2011. Each appeal
involved a removal case in which an immigration judge had made a final
decision. Sixteen of the appeals involved non-detained aliens
(70 percent) and seven involved detained aliens (30 percent), and most of
the decisions regarding the appeals, regardless of the aliens’ custody
status, were made by single board members. To obtain a sample of
appeals that exemplified work performed by the BIA’s staff attorneys, we
selected cases reviewed by different staff attorneys prior to the BIA
decision. To determine the types of pending appeals and how long they
had been pending, we analyzed individual case information for all
immigration judge case appeals pending on May 24, 2011 (17,987
appeals).




OIG that a report of the group’s findings and recommendations is being compiled for the
EOIR Director.

       24We did not assess the validity and reliability of the data entered in EOIR’s
automated case system.


U.S. Department of Justice                                                        12
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



                 SECTION I. THE IMMIGRATION COURTS 


PERFORMANCE REPORTS 


       EOIR’s performance reports are incomplete and
       overstate   the    actual    accomplishments     of   the
       immigration courts in adjudicating immigration cases.
       EOIR reports completions even when the immigration
       courts have made no decisions on whether to remove the
       aliens from the United States. Further, EOIR does not
       report the total time it takes to complete each case and
       excludes a substantial portion of cases from the data
       used to track the timely completion of cases,
       approximately one-third of our case sample analysis. In
       addition, EOIR abandoned completion goals for cases
       involving non-detained aliens that do not involve
       asylum, which make up about 46 percent of the courts’
       completions. Some courts’ caseloads consist primarily
       of non-detained cases, and therefore, these courts do not
       have measures to assess their performance in processing
       the majority of their cases. While no performance report
       is perfect, we concluded that the flaws in EOIR’s
       performance reporting precludes the Department from
       accurately assessing the courts’ progress in processing
       immigration cases or identifying needed improvements.


EOIR reports completions even when no decisions have been made
whether to remove the aliens from the United States.

       EOIR records completions when cases are closed at a particular
court even if a decision has not yet been made as to whether to remove
the alien from the United States or to grant relief from removal. As
explained below, actions that close a case in a particular court but that
do not result in a decision regarding whether to remove the alien include
transfers or changes of venue, administrative closures, and failures to
prosecute:

       	 Changes of venue and transfers occur when a case is moved
          from one court to another.

U.S. Department of Justice                                          13
Office of the Inspector General
Evaluation and Inspections Division
       	 Administrative closures occur when both parties agree to
          temporarily remove a case from the court calendar until the
          DHS or the alien files a motion to recalendar the case.25 For
          example, the DHS and the alien can file a joint motion to
          administratively close a case in which the alien has an
          application pending with the DHS for an immigration benefit
          that may result in relief from removal.26

       	 Failures to prosecute occur when the DHS does not file copies
          of the notices to appear with the courts prior to the initial
          hearing. In those instances, the DHS serves the alien with the
          notice to appear and puts the master calendar hearing on the
          court’s calendar. Although the DHS and alien are present for
          the hearing, the immigration judge is not permitted to hear the
          case because the DHS has not filed a copy of the notice to
          appear with the court and thus the court lacks jurisdiction.
          When failures to prosecute occur, the aliens are generally
          excused and no further hearings are scheduled until the DHS
          files the copies of the notices to appear.

       In all these actions, no decisions are made about whether the
aliens may remain in the United States or be ordered removed, but EOIR
counts the actions in its performance reports as completions. As a
result, EOIR does not accurately report the actual number of cases that
are completed.

      In our analysis of a sample of 1,785 cases closed during calendar
year 2009, we found that a single case may be “completed” multiple
times before a judge makes a decision to remove the alien or grant relief
from removal. In addition to the 1,785 final decisions in these cases,
EOIR would have reported as completions 484 actions that were
administrative events rather than final decisions that determined
whether the aliens should be ordered removed from the United States or
granted relief from removal.27


       25 Recent case law permits immigration judges to administratively close certain

cases even without the consent of both parties. Matter of Avetisyan, 25 I&N Dec. 688
(BIA 2012).

       26   Immigration benefits include naturalization and permanent residency.

       27 Sixty-four percent of the 1,785 aliens in our sample were ordered removed.

Approximately 77 percent of the aliens who received a decision in less than 1 year
(1,295 aliens) were ordered removed.


U.S. Department of Justice                                                         14
Office of the Inspector General
Evaluation and Inspections Division
EOIR does not accurately count the total time to complete each
case, exempts some cases when measuring whether cases are
meeting completion goals, and has discontinued some goals.

       EOIR’s performance reports do not fully represent how long or how
many cases are in the immigration court system awaiting decisions by
immigration judges. Three EOIR practices contribute to incomplete and
inaccurate performance reporting: (1) dividing case time between courts,
(2) exempting cases from completion goals based on certain case
activities, and (3) discontinuing completion goals for entire categories of
cases. We explain each practice in more detail below.




U.S. Department of Justice                                           15
Office of the Inspector General
Evaluation and Inspections Division
Dividing Case Time Between Courts

       EOIR does not tally the time an alien’s case spends at different
courts to determine the actual total case length and whether that total
time met completion goals.28 For example, a case for a detained alien
has a timeliness goal of 60
days, but if the case were to                       Case Examples
spend 50 days at one court and          A 2009 case involving a non-detained
50 days at another court, EOIR      alien without an application for relief from
would report two detained cases removal had a change of venue 142 days
                                    after the court received the case. The
that were each completed in 50      receiving court substantively decided the
days, both meeting the 60-day       case after another 196 days. According to
goal. In actuality, the case took   EOIR’s method of tracking completions, the
100 days from the first court’s     case would be reported as having been
receipt of the notice to appear     completed twice, the first in 142 days, and
                                    then again in 196 days, both times being
until the second court’s            successfully within the case completion goal
decision on whether the alien       of 240 days. In actuality, it took an
should be removed. Thus,            immigration judge 338 days to render a
EOIR understates the time it        substantive decision on the case.
takes to complete some cases        Therefore, the case actually exceeded the
                                    completion goal by more than 3 months.
and reports cases as having
successfully met EOIR’s goals           A 2009 case involving a detained alien
when they have not.29 EOIR          with an application for relief from removal
officials told us that they report  was transferred 20 days after the court
case length in this manner          received the case. The transfer moved the
                                    case to a different hearing location serviced
because a case that is closed at    by the same court. The case was decided
a particular court is “complete,”   substantively after another 131 days.
from the point of view of the       According to EOIR’s method of tracking
particular court, and is no         completions, the case would be reported as
longer pending on that court’s      having been completed twice, the first in 20
                                    days, well within the case completion goal
docket. Although tracking           of 120 days, and the second in 131 days,
cases in this manner can serve      which is outside the 120 day completion
as a measure of a particular        goal. In actuality, it took an immigration
court’s workload and may            judge 151 days to render a substantive
identify specific delays in         decision on the case, exceeding the
                                    completion goal by a month.
EOIR’s handling of a case, it is
not an accurate measure of the

      28 EOIR’s case completion goals vary by type of case and changed between 2009

and 2010. Table 1 in the Background section shows the goals by case type and year.

        29 EOIR includes a footnote in its internal Report on Case Completion Goals

that states the report measures the time from receipt to completion at each court,
which is a proceeding.


U.S. Department of Justice                                                      16
Office of the Inspector General
Evaluation and Inspections Division
total time taken by EOIR to render a decision on removability in each
case. The text box (previous page) describes two cases in our sample
that show the effect of EOIR’s practice on reported completion times.

       As a result, the total number of cases resolved by the immigration
courts each year is not readily apparent in EOIR’s reports. For example,
in its FY 2010 Performance and Accountability Report, EOIR reported
that it completed 89 percent of its detained cases within 60 days.
However, because these completions include actions where a proceeding
was completed at a particular immigration court but then reopened in
another immigration court, the statistics overstate EOIR’s overall
completion rate. These facts are not disclosed in the Performance and
Accountability Report. Additionally, because EOIR counts multiple
receipts for cases that change venue or are transferred, the actual
number of new cases it receives each year also is overstated.30

Exempted Cases

       EOIR excludes cases from being measured in the goals when the
cases are delayed for reasons that EOIR considers to be outside the
control of immigration judges.31 These delays primarily occur when the
DHS adjudicates immigration benefits or conducts background
investigations. The immigration judges cannot proceed with the cases
until the DHS decides whether the aliens are eligible for the benefit or
the background investigations have been completed.32




       30 “Receipts” are defined by EOIR as the total number of proceedings, bond
redeterminations, and motions to reopen or reconsider received by the immigration
courts during a reporting period. Our review included only proceedings receipts.

        31 EOIR also excludes cases that involve juvenile and unaccompanied juvenile

aliens, incarcerated criminal aliens where the DHS has filed the notice to appear less
than 120 days from the alien’s earliest possible release date, and incarcerated criminal
aliens whose cases have been remanded back to the immigration courts by the BIA. In
our sample of 1,785 closed cases, 47 cases (2.6 percent) were excluded from the goals
for these reasons.

       32  We are told that the DHS has worked with EOIR to identify procedures that
promote court docket efficiency. As a result, over the last 2 years, the DHS
implemented a project to expedite benefits applications pending at the DHS’s U.S.
Citizen and Immigration Services when the aliens are in immigration court
proceedings. This project is meant to ensure that applications for these aliens are
adjudicated quickly to allow the immigration court proceedings to proceed. Our review
did not involve an assessment of this project.


U.S. Department of Justice                                                        17
Office of the Inspector General
Evaluation and Inspections Division
      Once EOIR exempts a case from its completion goal, the exemption
applies throughout the duration of the case. EOIR does not restart its
count of court processing days when the cases resume after the DHS
rules on the aliens’ benefits or completes the background investigations.
However, EOIR counts any completions (such as transfers or changes of
venue) that occurred before the case was exempted toward that case’s
completion goal.

      In our sample of closed cases from 2009, the percentage of cases
exempted from EOIR’s goals varied by the alien’s custody status and
whether the alien submitted an application for relief from removal.
Figure 1 below shows the percentage of exempted cases in our sample by
case type.

                    Figure 1: Percentage of Cases Exempted
                   from Case Completion Goals by Case Type
                100%

                80%        94%
                                       82%
    Included    60%                                  72%                                                               70%
     in goals                                                    57%
                40%
                                                                               36%           36%
                20%                                                                                       30%

                 0%
                                       18%
                           6%
                20%                                  28%                                                               30%
                                                                 43%
                40%
   Exempted
   from goals                                                                  64%           64%
                60%                                                                                       70%

                80%
                                                       Number of Cases in Each Case Type
                100%
                       691 detained  209 non‐ 264 detained  109 mixed        83 asylum      223 non‐    206 mixed  1,785 total 
                          cases      detained  cases with       custody        cases        detained     custody      cases
                         without       cases     applications    cases                     cases with  cases with 
                       applications   without                   without                   applications applications
                                    applications              applications


Notes: Mixed custody cases involved aliens who were detained for a portion of the life of
the case. All of the asylum cases involved non-detained aliens.
 “Applications” refer to applications for relief from removal, which allow aliens to legally
remain in the United States or to have removal deferred.
Although goals for cases involving non-detained aliens were in effect in calendar year
2009, those goals were discontinued beginning in calendar year 2010, as discussed in
the following section.
Source: Sample of cases closed in calendar year 2009 from EOIR.

U.S. Department of Justice                                                                                      18
Office of the Inspector General
Evaluation and Inspections Division
      Most significantly, our analysis shows that a majority of the
asylum cases in our sample – 64 percent – were exempted by EOIR from
the goals despite a statutory requirement that these cases be completed
within 180 days.33 Because a large percentage of cases may not be
counted toward their completion goals, the usefulness of the goals is
questionable in helping EOIR ensure cases are completed in a timely
manner.

Discontinued Completion Goals

       Beginning in calendar year 2010, EOIR discontinued the
completion goals it previously established for monitoring the timeliness
of its non-detained cases, with the exception of asylum cases. As a
result, there are no standards against which to measure the courts’
ability to process these non-detained cases within particular time frames.
According to EOIR, it discontinued the goals to help the immigration
courts focus more on the highest priorities – namely, cases involving
aliens who are detained during their proceedings.

       However, our analysis showed that the non-detained cases
constitute a large number of the immigration courts’ proceedings – about
46 percent.34 For 18 courts, including New York, non-detained cases
constitute the majority of their case load.35 Table 1 in the Background
section shows the case completion goals that existed for the immigration
courts during calendar year 2009 and the new goals that became
effective in calendar year 2010.36


       33  According to 8 U.S.C. § 1158(d)(5)(A)(iii) (2011) (corresponds to INA
§ 208(d)(5)(A)(iii)), in the absence of exceptional circumstances, the final adjudication of
asylum applications must be completed within 180 days after the application is filed.

       34 The 46 percent is based on FY 2010 proceedings completion data from the
EOIR Statistical Year Book. The remaining 54 percent of the courts’ proceedings, all of
which have goals, are detained proceedings, asylum proceedings, and credible fear
determination hearings (hearings held to review DHS determinations that aliens’ fears
of persecution or torture if they are removed were not credible).

       35 These immigration courts still have goals against which to measure the
processing of their asylum cases. However, our analysis showed that the asylum cases
accounted for less than half of the cases processed at each of these 18 courts during
FY 2010.

       36 The immigration courts did not meet completion goals for the non-detained
cases from FY 2006 through FY 2009. The completions for the non-detained cases
without applications were occasionally close to the goals – 79 to 89 percent of the cases
                                                                                    (Cont.)
U.S. Department of Justice                                                           19
Office of the Inspector General
Evaluation and Inspections Division
       The OIG recognizes the importance of the timely completion of
cases involving detained aliens, given that the aliens are deprived of their
liberty and detained at taxpayer expense. However, we believe that EOIR
should have goals for the non-detained cases as well so that EOIR can
assess whether, after prioritizing the detained cases, it is still making
adequate progress on the timely completion of the non-detained cases.
Moreover, the OIG believes that EOIR should have separate goals to
reduce the non-detained cases that have been pending for an excessive
amount of time.37 Our analysis of case data (described later in the
report) showed that about 75 percent of pending cases are non-detained
cases.

Conclusion

      EOIR’s reporting on the immigration courts’ completion of cases is
flawed and makes it difficult to know how well the courts are performing.
EOIR counts completions when case actions occur that do not result in
decisions to order the removal of aliens from the United States or to
grant relief from removal. By reporting these actions as completions,
EOIR obscures the actual number of immigration cases it receives and
completes each year. Further, EOIR’s method for counting case length
underreports actual case processing times. When cases are moved from
one immigration court to another, each court’s processing time is
considered separately when assessing whether the case processing time
met goals. The total time that such cases remain in the court system
overall is not reported. Also, EOIR exempts many cases from case
completion goals when an event occurs that EOIR believes is outside the
control of the courts and prevents the immigration judge from proceeding
with the action. EOIR still counts any case activities that it defines as a
“completion” before the case became exempt, and does not restart its
count of court processing days once the case resumes. Further,
beginning in January 2010, EOIR made a decision to abolish its
completion goals for non-detained cases. EOIR made this decision to

were completed within 240 days during the time period. The completions for the
non-detained cases with applications were never closer than 10 percentage points from
the goal. The goal was to complete 60 percent of these cases within 240 days, but only
38 to 50 percent of the cases were completed within 240 days.

        37 EOIR began a project in March 2008 to attempt to resolve non-detained cases

pending over 5 years. The goals of the project are to identify these cases, schedule and
complete the cases as soon as possible, and document the reasons for any cases that
legitimately remain pending. According to EOIR, there were 6,836 cases over 5 years
old as of January 2010. We discuss our analysis of the pending cases by type of case
and age later in the report.


U.S. Department of Justice                                                       20
Office of the Inspector General
Evaluation and Inspections Division
emphasize the processing of detained cases, which understandably are a
priority. All cases, however, regardless of whether the alien is detained
or not detained, should have goals to enable EOIR to monitor its
performance in resolving cases in a timely manner.

      We have no evidence to suggest that EOIR intended for its
reporting to be misleading. Nevertheless, substantially complete and
accurate data reporting is essential for EOIR to better administer the
volume of immigration cases, and without an accurate and
comprehensive picture of how the immigration courts are performing,
EOIR will be limited in its ability to identify areas that need
improvement.

Recommendations

      To provide more accurate and complete information for managing
cases in the immigration courts, we recommend that EOIR:

       1. improve reporting of immigration court data to distinguish
          decisions on the removal of aliens from other case activities and
          reflect actual case length even when more than one court is
          involved,

       2. eliminate case exemptions from completion goals to reflect
          actual case length, but identify case delays that EOIR considers
          outside the control of immigration judges, and

       3. develop immigration court case completion goals for non-
          detained cases.




U.S. Department of Justice                                           21
Office of the Inspector General
Evaluation and Inspections Division
CASE PROCESSING

         We found that the immigration court system overall did
         not keep pace with processing the volume of
         immigration cases received from FY 2006 through
         FY 2010. The rate of completions decreased despite a
         small increase in the number of judges. During the
         period, the number of pending cases increased
         significantly. Our analysis of a sample of closed cases
         showed that cases involving non-detained aliens and
         those with applications for relief from removal can take
         long periods to complete. This results in crowded court
         calendars and delayed processing of new cases. For
         example, cases in our sample for non-detained aliens
         took on average 17½ months to adjudicate, with some
         cases taking more than 5 years to complete. In addition
         to the volume of new cases, the number and length of
         case continuances granted by immigration judges were a
         significant factor in slowing case processing. As a result
         of slow case processing, aliens who ultimately were not
         found to have supportable claims for relief from removal
         remained in the United States longer, and EOIR and the
         DHS expended more resources to pursue the cases.


Immigration courts did not keep pace with processing cases, and
pending cases increased significantly.

      EOIR has a strategic goal to adjudicate all immigration cases in a
timely manner, which is an important aspect of upholding immigration
law.38 According to EOIR’s reports on the immigration courts’
performance from FY 2006 through FY 2010, the courts were unable to
complete as many proceedings as they received each year during that
period. In addition, the number and age of the cases that the courts
carried over from fiscal year to fiscal year increased. As discussed below,
EOIR’s performance reports (although needing improvement) showed a
downward trend in the court system’s productivity for processing
immigration proceedings, which EOIR counts instead of individual cases.

      According to EOIR’s FY 2010 Statistical Year Book, from FY 2006
through FY 2010, the number of proceedings received outpaced the

         38   Executive Office for Immigration Review Strategic Plan, Fiscal Years 2008 –

2013.



U.S. Department of Justice                                                           22
Office of the Inspector General
Evaluation and Inspections Division
number of proceedings the courts completed.39 In 4 of 5 years during
this period, the number of proceedings received was greater than the
number of proceedings completed (that is, the completion rate was less
than 100 percent). The number of proceedings received grew about
5 percent, from 308,652 in FY 2006, to 325,326 in FY 2010. During this
same period, the number of proceedings the immigration courts
completed decreased about 11 percent, from 324,040 in FY 2006 to
287,207 in FY 2010. Figure 2 illustrates the court system’s case
completion rate for each fiscal year.40

      Figure 2: Immigration Courts’ Completed Proceedings as a 

       Percentage of Proceedings Received, FY 2006 – FY 2010 





                         FY 2006     FY 2007     FY 2008     FY 2009     FY 2010 
        Receipts          308,652     279,430     292,013     327,928     325,326 
        Completions       324,040     273,468     281,216     290,435     287,207 
            Notes: The rate completed is the total number of completions as a
            percentage of the total number of receipts for the entire immigration
            court system for each fiscal year. Completions include proceedings that
            resulted in decisions and other completions, such as administrative
            closures and transfers of cases to other courts.

            Source: EOIR FY 2010 Statistical Year Book.



         39 EOIR’s Statistical Year Book tracks data for the immigration courts by

proceeding. A proceeding is all legal action taken on a case at a particular immigration
court, excluding bond redeterminations and motions. These proceedings make up the
alien’s immigration case.

       40 Notably, bond redetermination hearings, which are not included in this
proceedings data, increased from 29,740 to 51,141 from FY 2006 through FY 2010.
Given the scope of our review, we were not able to assess the impact of the increase in
bond redetermination hearings on the immigration courts’ ability to complete the
proceedings analyzed here.


U.S. Department of Justice                                                           23
Office of the Inspector General
Evaluation and Inspections Division
      During this same 5-year period that the completion rate was
declining, the number of immigration judges was increasing. We
determined that EOIR hired 75 immigration judges from FY 2006
through FY 2010, which after attrition increased the number of on-board
judges by 27, from 211 to 238 (13 percent).41 Despite the increase in
judges, the overall efficiency of the courts did not improve.42

      As the overall completion rate for proceedings decreased below
100 percent from FY 2006 through FY 2010, the number and age of
proceedings pending at the conclusion of each year increased. As shown
in Figure 3, based on EOIR’s internally reported data, the number of
pending proceedings increased from 164,051 in FY 2006 to 261,426 in
FY 2010 – an increase of 59 percent. Also, the number of proceedings
pending 1 year or more increased from 64,236 in FY 2006 to 118,966 in
FY 2010 – an increase of 85 percent. The percentage increase of cases
pending 1 year or more was actually greater, but EOIR’s method of
reporting does not always capture true case length. These numbers
indicate that the court system overall is falling further behind and that
more cases are experiencing processing delays.




       41 Seventeen of the 75 judges (23 percent) were hired during FY 2010. New
judges undergo extensive training and may not have the performance level of more
experienced judges. Beginning in January 2011, EOIR has been under a Department-
wide hiring freeze, which impedes the hiring of judges and staff.

       42  EOIR noted that in FY 2011, there was an 11 percent increase in the number
of judges and the number of matters completed. However, FY 2011 was outside the
scope of our review and we have not verified those figures.


U.S. Department of Justice                                                     24
Office of the Inspector General
Evaluation and Inspections Division
                                   Figure 3: Number and Age of Pending Proceedings at the 

                                           Immigration Courts, FY 2006 – FY 2010 

                                  300,000
  Number of Pending Proceedings
                                                                                                       261,426
                                  250,000                                               222,536

                                  200,000                                185,312                       118,966
                                            164,051       173,115
                                                                                         94,262
                                  150,000                                 80,825
                                            64,236         68,050
                                  100,000
                                                                                        128,274        142,460
                                   50,000   99,815        105,065        104,487

                                       0
                                             2006          2007             2008          2009            2010
                                                                         Fiscal Year
                                                 Pending less than 1 year            Pending 1 year or more

         Note: Pending proceedings are as of the end of each fiscal year (September 30).
         Source: FY 2006 – FY 2010 EOIR Director’s Monthly Reports for September.

       We analyzed individual case information for all removal
proceedings pending on a randomly selected day – August 3, 2010
(252,925 cases) – to determine the amount of time that aliens had been
waiting for resolution on their cases.43 Our analysis measured the
amount of time from the date the original court received the notice to
appear until August 3, 2010. Non-detained proceedings accounted for
75 percent (189,276), asylum proceedings accounted for 19 percent
(48,940), and detained proceedings accounted for 6 percent (14,709) of
all pending proceedings. We determined from the individual case
information that, as of that date, 118,794 proceedings (47 percent) had
been pending less than 1 year. We also determined that 57,068
proceedings (23 percent of all pending proceedings) had been pending 1
to 2 years, 29,244 proceedings (12 percent of all pending proceedings)
had been pending 2 to 3 years, and 47,819 proceedings (19 percent of all
pending proceedings) had been pending 3 years or more.44 (See
Figure 4.) Predominantly, the proceedings pending for over 3 years
involved aliens who were not detained, and most of these proceedings


          We randomly selected the date of August 3, 2010. We had no indication that
                                  43

the pending cases on a particular day would be significantly different than any other
day within a reasonable time frame.

          We determined that 21,614 proceedings (8.5 percent of all pending
                                  44

proceedings) were pending 5 years or more.


U.S. Department of Justice                                                                                       25
Office of the Inspector General
Evaluation and Inspections Division
involved aliens who had filed applications for relief from removal.45
There were 6,238 proceedings (2.5 percent of all pending proceedings)
that were pending for 10 years or more.

      We note, however, that our calculations of proceedings’ lengths
does not account for cases that were closed and later reopened, as
happens, for example, when cases are on appeal with the BIA, or when
cases are administratively closed.46




       45 Of the 47,819 proceedings pending over 3 years, 44,107 (92 percent) involved
non-detained aliens.

       46  The individual case information for the 252,925 pending proceedings did not
enable us to identify the number that were closed and later reopened, or the length of
time those proceedings were closed. EOIR noted that some older proceedings may have
been closed for periods of time that would skew the computations. We therefore
considered the impact of these temporary closures on our analysis. We used our
sample of 1,785 closed cases for a comparison and found that approximately 8 percent
of those cases were closed and later reopened. We then excluded a similar proportion
(approximately 10 percent) from just the oldest cases to gauge the effect of closures on
our analysis and we found that 48 percent of the 252,925 proceedings would still have
been pending over 1 year. Due to the limitations of the available data, we were not able
to assess whether the effects of interim closures were greater or less with respect to
other calculations, including those cases which had been pending for more than 10
years.


U.S. Department of Justice                                                       26
Office of the Inspector General
Evaluation and Inspections Division
                      Figure 4: Age of Pending Proceedings
     60%
                  47%
     50%

     40%

     30%
                                  23%
                                                                    19%
     20%
                                                    12%
     10%

      0%

            Less than 1 year    1 year old       2 years old   3 years or older

                   old

                                     Age of Proceeding


      Notes: The figure displays data for all 252,925 removal proceedings
      that were pending at the immigration courts as of August 3, 2010.
      Percentages do not add to 100 due to rounding.
      Source: EOIR.

Cases, especially those for non-detained aliens, can take long
periods to complete.

       We examined a sample of closed cases and found that case
processing times can be protracted. The case lengths varied
considerably depending on the alien’s detention status and whether the
alien applied for relief from removal. Our analysis of the closed cases in
our sample showed that processing times were affected significantly by
case continuances granted by the immigration judges. We also found
weaknesses in EOIR’s resource management capabilities that affect the
allocation of judges and, thus, case processing.

Processing Times by Case Type

       Our analysis of a sample of 1,785 individual cases closed by 10
courts in calendar year 2009 showed that the courts’ average case
processing time for non-detained aliens was significantly greater than
that for detained aliens.47 In our sample of cases, the average time to

        47 Case processing time is the total time from the date the court receives a copy

of the notice to appear until the immigration judge renders a decision on whether the
                                                                                    (Cont.)
U.S. Department of Justice                                                          27
Office of the Inspector General
Evaluation and Inspections Division
process detained cases was 1½ months. Detained cases with
applications for relief from removal took almost 5 times longer on average
than detained cases without applications for relief from removal. Cases
involving non-detained aliens took, on average, 17½ months to
adjudicate, with some cases taking more than 5 years to complete.
Figure 5 shows the average case times for detained and non-detained
cases.

    Figure 5: Closed Cases Average Processing Time by Case Type
                                                               Non‐detained average 526 days (17½ months) 
  Days
 700                                                     667                   657

 600
 500
 400
                                                                                                    324
 300
           Detained average 48 days (1½ months) 
 200
             113
 100
                                   23
   0
         264 Detained        691 Detained          223 Non‐detained  83 Asylum cases 209 Non‐detained 
           cases with        cases without            cases with                       cases without 
          applications        applications           applications                       applications



   Notes: The figure displays data for 1,470 cases in which the aliens had a
   consistent custody status throughout their cases. All of the asylum cases
   involved non-detained aliens. The time when cases were closed and later
   reopened was excluded, including, for example, time that elapsed when cases were
   on appeal at the BIA or administratively closed.
   We also examined 315 cases in which the aliens were detained for a portion of the
   life of the case. Because we were unable to determine the amount of time the
   aliens were in detention, we did not include these cases in the figure.
   Applications refer to applications for relief from removal, which allow aliens to
   legally remain in the United States or to have removal deferred.
   Source: Case sample data from EOIR.




alien is to be removed from the United States. We excluded the time when cases were
outside the courts’ control, such as when cases were on appeal at the BIA or
administratively closed.


U.S. Department of Justice                                                                                   28
Office of the Inspector General
Evaluation and Inspections Division
       Excessive delay in immigration case processing can undermine the
fair administration of justice if witnesses are no longer available to
testify, U.S. citizen relatives die, or documentary evidence is lost.
Moreover, the failure to promptly resolve cases results in aliens with
unsupportable claims for relief from removal remaining in the United
States longer, while those with legitimate claims for relief remaining in
legal limbo for unwarranted lengths of time. In our sample, we had 27
cases that took from 5 to 9 years to complete.

       Delays in case processing for detained cases also increase
associated DHS detention costs. The Department of Justice’s costs also
rise as time spent processing cases increases, as do the costs for those
representing the aliens.

Frequent and Lengthy Continuances

       We found that frequent and lengthy continuances are a primary
factor contributing to case processing times, especially in non-detained
cases. In our sample of 1,785 closed cases, 953 cases (53 percent) had
one or more continuances. These 953 cases had a total of 4,091
continuances amounting to 375,047 days in aggregate. Each case had,
on average, four continuances, and the average amount of time granted
for each continuance was 92 days (about 3 months), resulting in an
average of 368 days per case.

       As shown in Figure 6, of the 4,091 continuances, requests from
the alien accounted for 2,521 continuances (62 percent), requests from
DHS accounted for 754 continuances (18 percent), and joint requests by
the alien and the DHS accounted for 12 continuances (0.3 percent).
Court-initiated continuances accounted for the remaining 804
continuances (20 percent).




U.S. Department of Justice                                          29
Office of the Inspector General
Evaluation and Inspections Division
                     Figure 6: Sources of Continuances

                        Court
                         804
                         20%



                                                              DHS
                                                              754
                                                              18%

                                Alien
                                2,521
                                 62%
                                                           Alien/DHS
                                                               12
                                                              0.3%



              Source: Case sample data from EOIR.

Alien Continuances

       Aliens request continuances for a variety reasons, but the most
common reasons include seeking legal representation and preparing
their cases. Aliens in immigration court proceedings do not have a right
to government-provided representation. However, they are given the
opportunity to obtain representation at their own expense.48 Of the
2,521 alien-requested continuances, 574 continuances (23 percent) were
to allow the alien time to obtain representation and 522 (21 percent) were
to allow the alien time to prepare the case. Continuances for the alien to
seek representation averaged 53 days, and continuances for the alien to
prepare the case averaged 66 days. Alien-requested continuances
accounted for 227,939 days (61 percent) of the total 375,047 days
granted for all continuances. Figure 7 shows the reasons for
continuances related to aliens from our sample of closed cases.




       48 Aliens may be represented not only by attorneys and law students, but also
by other persons, including accredited representatives from recognized charitable
organizations and family members.


U.S. Department of Justice                                                     30
Office of the Inspector General
Evaluation and Inspections Division
                       Figure 7: Reasons for Alien Continuances

                                                                   Alien to seek representation:  Time to 
                                                 Alien to          seek legal representation. 
      Alien to seek 
                                               prepare case
       represent‐
                                                   522
          ation
                                                   21%             Alien to prepare case:  Time to prepare 
           574
                                                                   the case, including time to file a relief 
          23%
                                                   Alien request   application. 
     Other
                                                        321
      172
      7%
                                                        13%        Alien request:  Time for other request or 
                                                                   to accommodate alien’s request for an 
                                                                   alternative hearing date.  
        Alien to 
                                               Alien to file or 
       complete 
                                                supplement 
     paperwork for                                                 Alien to file or supplement application:  
                                                application
        DHS BI                                                     Time to file or amend an application for 
                            Alien‐initiated         321
          300                                                      relief. 
                                 DHS                13%
          12%
                             application
                                 311
                                                                   Alien‐initiated DHS application:  Time for 
                                 12%
                                                                   the DHS to adjudicate the alien’s 
                                                                   application for an immigration benefit. 
 Notes: Percentages do not add to 100 due to rounding.
 Other is a combination of 8 infrequently occurring reasons.       Alien completes paperwork for DHS 
                                                                   background investigation (BI):  Time to 
 Source: Case sample data from EOIR.                               complete the required paperwork for a 
                                                                   DHS background investigation. 




U.S. Department of Justice                                                               31
Office of the Inspector General
Evaluation and Inspections Division
        Of the 574 continuances
granted to the aliens to obtain                             Helping Aliens

                                                     Understand the Court Process

representation, 271 occurred at
the initial hearing. The                          EOIR has administered a Legal
                                               Orientation Program since 2003 to provide
Immigration and Nationality Act
                                               detained aliens with basic information
(Act) affords aliens time prior to             about the immigration court proceedings.
the initial master calendar hearing            According to EOIR, during FY 2010,
to secure representation.                      contract personnel provided information to
According to the Act, the initial              about 62,000 detained aliens (50 percent of
                                               the detained population) at 25 of the DHS’s
master calendar hearing cannot be
                                               more than 80 detention sites that may
scheduled earlier than 10 days                 house aliens involved in removal
after the alien is served with the             proceedings. The program also is used for
notice to appear. This minimum                 some non-detained aliens. For example,
10-day period before the initial               during 2010, EOIR launched a pilot
                                               program at the Miami immigration court to
master calendar hearing is
                                               provide services to non-detained aliens
provided for the alien to secure               who:
representation.49 Among the cases
in our sample, the average time                  	 were unable to secure representation,
from the aliens being served with                   and
the notices to appear until the                 	 the immigration judge believed did not
initial master calendar hearings                   understand the proceedings.
was 69 days (more than                             According to EOIR, the Legal Orientation
2 months).50 Nevertheless, 271                 Program improves the efficient processing
aliens requested continuances at               of immigration cases because its
their initial master calendar                  participants have a better understanding of
                                               the process, are better prepared for their
hearings for more time to seek
                                               cases, and are more likely to identify forms
representation.                                of relief from removal for which they are
                                               eligible. The Department’s FY 2012 budget
      The decision on whether to               request included an additional $4 million to
grant a continuance requested by               expand the program to reach more detained
                                               aliens. Congress did not provide the
an alien is a legal issue governed
                                               additional funds.
by precedent. We are informed by
EOIR that there is a well-established body of case law regarding
continuances and many cases deal with denial of a continuance as it

       49  Section 239(b)(1) of the Act directs that for an alien to “be permitted the
opportunity to secure counsel before the first hearing . . . the hearing date shall not be
scheduled earlier than 10 days after the service of the notice to appear, unless the alien
requests . . . an earlier hearing date.” Section 239(b)(3) states that it should not be
construed that the government is prevented from proceeding against an alien if the time
period has elapsed and the alien has failed to secure representation.

       50 When the aliens are served with the notice to appear, the DHS informs them

that they may secure legal representation and provides a list of attorneys or programs
providing reduced-fee or free assistance.


U.S. Department of Justice                                                         32
Office of the Inspector General
Evaluation and Inspections Division
impacts the right to counsel.51 According to EOIR, most unrepresented
aliens are granted at least one continuance to obtain representation in
order to meet the legal requirements of a fair hearing that affords due
process. EOIR advised us that a lack of representation can significantly
delay proceedings because of the extra time needed to provide
explanations to, and solicit information from, the aliens.

       To help aliens understand the immigration court process, and thus
improve the efficient processing of immigration cases, EOIR administers
a legal orientation program primarily for detained aliens (see text box).

DHS Continuances

      The most common DHS-requested continuance was to allow the
DHS time to complete background investigations and security checks of
aliens seeking relief from removal. Of the 754 DHS-requested
continuances, 294 continuances (39 percent) were granted for this
purpose. An immigration judge cannot grant an alien relief from removal
from the United States until the DHS completes the appropriate
background investigations and reports any relevant information to the
judge.52 Thus, while judges have discretion whether or not to grant
continuances, because the judge cannot grant an alien relief without the
results of the DHS background investigation, continuances for this
reason are unavoidable. In our sample, we found that the background
investigation continuances averaged 132 days. Figure 8 shows the
various reasons for DHS-requested continuances.




          51   We did not undertake an analysis of these legal precedents as part of our
review.

      52 However, an immigration judge does not need to wait for the results of the

DHS background investigation or security check to deny an alien relief from removal.


U.S. Department of Justice                                                            33
Office of the Inspector General
Evaluation and Inspections Division
                  Figure 8: Reasons for DHS Continuances

                              DHS 
                         investigation                             DHS background investigation:  Time 
                          or forensic                              to complete alien background 
                            analysis                               investigations.   
     Released                  78
       from                   10%
     custody                                                       DHS preparation:  Time to prepare 
         87                                                        the case or to obtain the alien’s case 
       11%                                       Other             file.   
                                                  170
                                                 23%
                                                                   Released from custody:  Case moved 
                                                                   from a detained to non‐detained 
     DHS                                                           court because alien was released 
  preparation                                       DHS            from custody.   
      125                                        background 
     17%                                        investigation
                                                                   DHS investigation or forensic 
                                                    294
                                                                   analysis:  Time to complete 
                                                    39%
                                                                   investigations or forensics 
                                                                   examination of alien‐filed 
                                                                   documents.   

Notes: Other is a combination of 10 reasons. Each reason is less than 10 percent of all
DHS-requested continuances.

Source: Case sample data from EOIR.

        Overall, the number of DHS-requested continuances was less than
one-third of alien-requested continuances, yet DHS continuances were
longer on average than alien continuances. In our sample, DHS
continuances exceeded alien continuances on average by 12 days
(102 days versus 90 days). Overall, DHS-requested continuances
accounted for 76,863 days (20 percent) of the total 375,047 days granted
for all continuances. Almost half of the total days attributable to DHS-
requested continuances (38,734) were for the DHS to conduct
background investigations. The DHS depends in part on the Federal
Bureau of Investigation (FBI) in completing its background investigations
and security checks. The FBI performs name checks in its databases
and fingerprint identification. We did not assess the timeliness of the
FBI’s name checks and fingerprint identification in this review.53


       53  A 2008 OIG audit, The FBI’s Security Check Procedures for Immigration
Applications and Petitions (Report Number 08-24), found that the FBI had significant
delays in processing name checks, but efficiently processed fingerprint identification.
All 21 recommendations in the report have been resolved and closed, including our
                                                                                    (Cont.)
U.S. Department of Justice                                                            34
Office of the Inspector General
Evaluation and Inspections Division
EOIR Guidance on Continuances

      According to 8 C.F.R. § 1003.29, immigration judges may grant
continuances “for good cause shown.” Immigration judges decide
whether to grant a continuance request, and for how long, largely on the
basis of past BIA and federal court decisions, and on the scheduling
concerns of the court. Immigration judges have received limited
guidance from EOIR, amounting to a single policy memorandum issued
by the Chief Immigration Judge in 1994. The memorandum states that
no more than two continuances should be granted for an alien to obtain
representation unless the alien establishes a legitimate reason for
additional continuances.54 The guidance is silent on the amount of time
that should be allowed to obtain representation and is silent on any
other type of continuance.

       In our sample of closed cases, 352 cases had 574 continuances to
allow the alien time to find representation. In 295 (84 percent) of the 352
cases, the judges adhered to the policy to limit the number of
continuances to two for finding representation. However, judges granted
aliens more than two continuances for the purpose of obtaining
representation in 57 cases (16 percent), which resulted in an additional
206 continuances.55 The additional 206 continuances extended those 57
cases by 8,581 days, or an average of 151 days per case. One case we
reviewed involved a detained alien who received 11 continuances to seek
legal assistance, and the case took the immigration court 884 days to
process. Even with all of those continuances, the alien never obtained
representation and the alien was ordered removed.

       Figure 9 shows the number of continuances to seek representation
for the 352 cases.



recommendation that the FBI develop a formal, long-term business plan for improving
the efficiency and accuracy of the name check process. The OIG has not conducted a
follow-up review to determine whether the FBI’s processing times have changed, but in
January 2012, the FBI informed our office that it had improved the processing time of
name checks, with 99 percent of the closure rates for FY 2011 averaging within 30
days. [Note: The original report released on November 1, 2012, incorrectly stated that
18 of the 21 recommendations had been resolved and closed.]

        Office of the Chief Immigration Judge, Operating Policies and Procedures
       54

Memorandum 94-6: Continuances, July 18, 1994.

       55In 33 (58 percent) of the 57 cases where judges granted more than two
continuances to seek representation, the aliens never obtained representation.


U.S. Department of Justice                                                       35
Office of the Inspector General
Evaluation and Inspections Division
                     Figure 9: Number of Continuances per Case for Alien
                                  to Seek Representation
                             250
                                       222
                             200       63% 
        Number of Cases


                             150

                             100
                                                               73
                                                                                       57
                              50                               21%
                                                                                      16% 
                              0
                                        1                       2                 More than 2
                                     Number of Continuances for Alien to Seek Representation

                     Source: Case sample data from EOIR.

      For the 352 cases, the average length of each continuance to seek
representation was 53 days. Figure 10 shows the range of days for the
352 cases.

                             Figure 10: Amount of Time per Case for Alien to 

                                          Seek Representation 

                             180                                                     162
                             160
                             140       121                                           46%
                             120
           Number of Cases




                             100       34%
                              80                               69
                              60
                              40                              20%
                              20
                               0
                                     2‐30 days             31‐60 days            Over 60 days

                                                      Range of Days per Case


                     Source: Case sample data from EOIR.


      When asked about the feasibility of issuing additional guidance on
continuances, EOIR officials indicated that determining whether the
circumstances of an individual case warrant a continuance is too
complex to be addressed with strict guidelines. EOIR also stated that

U.S. Department of Justice                                                                      36
Office of the Inspector General
Evaluation and Inspections Division
immigration judges often set the length of continuances according to the
next available hearing dates on their calendars, and therefore, guidance
on the length of continuances is unlikely to have practical effect.

       While we agree that such decisions are complex and fact-
dependent, we also believe that immigration judges could better apply
their judgment in individual cases if EOIR provided further direction on
the use of continuances, particularly with regard to what qualifies as
good cause for granting continuances, and to the extent possible, what is
reasonable in terms of the number and length of continuances in
frequently-encountered circumstances. Additionally, EOIR could require
additional review and approval if the number of continuances exceeded a
reasonable number, or if the total length of continuances exceeded a
certain amount of days. Doing so could assist immigration judges in
avoiding unnecessary delays, which would help the courts process cases
expeditiously and could also help ease some of the crowding of court
calendars that leads to more lengthy delays.

Weak Resource Management

       In examining whether changes to EOIR staff allocations might
improve case processing times, we found EOIR does not have the data or
an objective staffing model to guide its resource planning and
deployment of immigration judges. For example, EOIR does not track
how the judges use their time on different types of cases or work
activities. Case type affects the use of judges’ time, with more time spent
on complex cases such as asylum cases. Other work activities, such as
responding to motions, conducting bond hearings, and performing
administrative tasks, also compete for the judges’ time. Further,
although EOIR stated that it uses information on the frequency and
length of judges’ details to other courts to determine the allocation of
judges, it was unable to provide us with data such as how frequently
details occur, how long each lasted, or how many proceedings were
conducted during the detail.56 Without data on staffing details, EOIR
does not know how much time judges spend helping other courts and

       56  We asked EOIR how it tracked information for both physical staffing details
and details through videoconferencing. In response, EOIR stated that it does not
centrally track detail travel information, but that it accounts for costs through the
travel authorization, travel vouchering, and the budget processes. When we requested
summary data on the number of immigration judges and hours they worked through
staffing details in FY 2009 and FY 2010, EOIR did not provide any data because it
stated that it does not track staffing detail information in the manner we requested.
When we requested any analyses EOIR had conducted on its use of staffing details,
EOIR responded that it had none.


U.S. Department of Justice                                                       37
Office of the Inspector General
Evaluation and Inspections Division
cannot assess the effects on the detained and non-detained caseloads of
the courts involved in the details.

       EOIR is not using a quantitative model to determine staffing levels
for immigration courts. EOIR officials told us that they consider the
following types of information when making staffing decisions: Assistant
Chief Immigration Judge assessments of court needs, DHS actions,
frequency of staffing details and associated costs, availability of court
space and agency resources, and legal requirements.57 However, EOIR
has not documented the staffing methodology it uses to assess that
information or assigned relative weights to reflect the importance of each
type of information. When we requested that EOIR provide any studies
that project staffing levels or needs, EOIR responded that it had none.

      Some models and guidance exist that EOIR can review and
potentially adopt to assist its resource management decisions. Federal
courts and many state courts use weighted caseload studies to assess
workload and determine the number of judges needed, which could
potentially help EOIR to develop a staffing model.58 Weighted caseload is
a method used to convert caseload into workload using time as a proxy
for workload. It is based on the assumption that the more time it takes
to process a case, the more work is involved. The Government
Accountability Office also has identified best practices for strategic
workforce planning. For example, staffing decisions, including needs
assessments and allocation decisions should be based on comprehensive
workload data that is valid and reliable.59




       57  According to EOIR, support staff are allocated in part on the basis of a ratio
of immigration judges to support staff. EOIR also stated that staffing is based on the
court size (i.e., one-judge, small, medium, and large immigration courts). The latter
basis for staffing decisions was provided to the OIG after its field work was completed
and therefore, was not confirmed.

       58 For example, the Judicial Conference, the federal judiciary’s principal
policymaking body, assesses the need for federal bankruptcy judges and federal district
judges by using a weighted case methodology. The National Center for State Courts
also recommends a weighted case methodology and has worked with several states to
develop weighted caseload models, including California, Colorado, Iowa, Maryland,
Minnesota, and New Hampshire.

        59 U.S. Government Accountability Office, DHS Immigration Attorneys: Workload

Analysis and Workforce Planning Efforts Lack Data and Documentation, GAO-07-206
(April 17, 2007), 12-14.


U.S. Department of Justice                                                          38
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

       Immigration court cases are frequently adjourned, resulting in
longer processing times. Our analysis showed most continuances are
attributed to the alien, and a significant percentage of the
alien-requested continuances are granted to allow the alien time to seek
representation and prepare the case. At initial hearings, for example, the
majority of the continuances were requested by the aliens, and almost
half of these continuances were to allow the aliens time to seek
representation. In our sample of closed cases, we found aliens had, on
average, 69 days (over 2 months) before their initial hearings to obtain
representation.

       EOIR has recognized that when aliens are better informed about
the immigration court process, they are better prepared for their cases.
To inform aliens about the court process, EOIR administers a Legal
Orientation Program that in 2010 provided services to about 40 percent
of detained aliens at 27 detention sites. In addition, EOIR launched a
pilot program in 2010 to extend the program’s services for the first time
to some non-detained aliens at one immigration court. (For FY 2012, the
Department requested additional funding to expand the program to more
detention sites, but did not receive the funds.)

      Though not as frequent as alien-requested continuances, DHS-
requested continuances are longer on average than alien-requested
continuances. Over one-third of the DHS continuances were caused by
pending background investigations and security checks that the DHS
must complete prior to an immigration judge granting an alien relief from
removal from the United States. The DHS depends in part upon the FBI
for assistance in completing background investigations and security
checks. These continuances are unavoidable because the judges do not
have the discretion to grant the aliens relief from removal until they
receive the results of the DHS investigations.

      We found that EOIR has provided limited guidance to immigration
judges to supplement the past BIA and federal court decisions on
whether to grant a continuance request and for how long to adjourn
cases. EOIR’s only guidance regarding continuances states that no more
than two continuances should be granted for an alien to seek
representation. For continuances for aliens seeking representation and
preparing their cases, we found significant differences in the number of
continuances granted and the total amount of time allowed for these
continuances. While we agree that decisions on granting continuances
are complex and fact-dependent, we also believe that immigration judges

U.S. Department of Justice                                          39
Office of the Inspector General
Evaluation and Inspections Division
could better apply their judgment in individual cases if EOIR provided
further direction on the use of continuances, and to the extent possible,
what is reasonable in terms of the number and length of continuances in
frequently-encountered circumstances. Doing so could assist
immigration judges in avoiding unnecessary delays, which would help
the courts process cases expeditiously and could also help ease some of
the crowding of court calendars that leads to more lengthy delays.

       EOIR does not collect full information about how court personnel
use their time and does not have a sound staffing model to determine
staffing requirements and the allocation of positions among immigration
courts. EOIR could develop a staffing model by reviewing methodologies
used by federal and state courts in determining their personnel
requirements.

Recommendations

     To improve case processing by the immigration courts, we
recommend that EOIR:

       4. analyze reasons for continuances and develop guidance that
          provides immigration judges with standards and guidelines for
          granting continuances to avoid unnecessary delays;

       5. develop a process for tracking time that immigration judges
          spend on different types of cases and work activities;

       6. collect and track data on its use of staffing details of judges;
          and

       7. develop an objective staffing model to assist in determining
          staffing requirements and the allocation of positions among
          immigration courts.




U.S. Department of Justice                                              40
Office of the Inspector General
Evaluation and Inspections Division
             SECTION II. THE BOARD OF IMMIGRATION APPEALS

        The BIA completed more appeals of immigration judge
        decisions than it received from FY 2006 through
        FY 2010 and reduced the number of pending appeals.
        Appeals involving non-detained aliens, however, still
        took long periods to complete. In our sample, the BIA
        averaged more than 16 months to render decisions on
        cases involving non-detained aliens. As a result, aliens
        whose appeals were ultimately denied remained in the
        United States longer than if the BIA had processed their
        cases more promptly, while those aliens whose appeals
        were ultimately granted faced prolonged uncertainty as
        to their legal status while the cases were being
        processed.    EOIR’s performance reporting does not
        reflect appeal delays and underreports actual processing
        time, which undermines EOIR’s ability to identify
        problems and take corrective actions.


The BIA completed more appeals of immigration judge decisions
than it received.

      Timely processing of appeals by the BIA, like timely processing of
immigration cases by the courts, is part of EOIR’s strategic plan.60
Based on EOIR’s publicly reported data of the BIA’s past performance
from FY 2006 through FY 2010, the BIA was able to complete more
appeals of immigration judge case decisions than it received most years
during that period.

Completed Appeals of Immigration Judge Case Decisions

      From FY 2006 through FY 2010, the BIA’s completion of appeals of
immigration judge case decisions generally outpaced the number of
newly filed appeals. In 4 of the 5 years during this period, the number of
these appeals completed by the BIA was greater than the number of
appeals received (that is, the completion rate was more than
100 percent). Overall, the number of appeals received declined
23 percent, from 20,282 in FY 2006 to 15,556 in FY 2010. Figure 11
shows the BIA’s completion rate of case decision appeals for each fiscal
year.

        60   Executive Office for Immigration Review Strategic Plan, Fiscal Years 2008 –
2013.


U.S. Department of Justice                                                          41
Office of the Inspector General
Evaluation and Inspections Division
   Figure 11: The BIA’s Completed Appeals of Immigration Judge 

        Case Decisions as a Percentage of Appeals Received, 

                        FY 2006 – FY 2010 

                       130%
                       120%
                                                            123%
      Rate Completed



                       110%   116%
                                                                         107%
                       100%
                                                                                     103%
                       90%                  97%

                       80%
                       70%
                       60%
                               2006         2007           2008          2009        2010
                                                         Fiscal Year


                                 FY 2006      FY 2007         FY 2008     FY 2009     FY 2010 
     Receipts                    20,282       18,343          17,759       16,644     15,556 
     Completions                 23,544       17,802          21,928       17,885     16,069 

    Note: The figure displays data only for appeals of immigration judge case
    decisions.
    Source: EOIR FY 2010 Statistical Year Book.


Pending Appeals

      EOIR does not report the BIA’s number of pending appeals of
immigration judge case decisions separately from the number of other
types of pending appeals.61 Therefore, we could not analyze the trend
from FY 2006 through FY 2010 for the number of pending immigration
judge case appeals. However, because the total number of these appeals
completed by the BIA was greater than the total number of these appeals
received over the 5-year period, it is apparent that the BIA was able to
reduce its pending caseload of immigration judge case appeals.62

        61 The BIA reviews cases involving other immigration court judge decisions,

such as bond eligibility and motions to reopen and reconsider. The BIA also reviews
cases involving DHS decisions, such as petitions to classify the status of alien relatives
for the issuance of preference immigrant visas, and fines imposed on transportation
carriers for the immigration law violations.

          The BIA’s completed appeals of immigration judge case decisions as a
             62

percentage of appeals received for all immigration judge case decision appeals was
110 percent for the 5-year period.


U.S. Department of Justice                                                                      42
Office of the Inspector General
Evaluation and Inspections Division
Additionally, we analyzed EOIR’s internally reported data for all types of
appeals and found that the number of all appeals pending decreased
5 percent, from 27,441 in FY 2006 to 26,116 in FY 2010.

      To determine the types of pending appeals and how long they had
been pending, we analyzed individual case information for all
immigration judge case appeals pending on May 24, 2011 (17,987
appeals).63 Appeals involving non-detained aliens accounted for
92 percent (16,468), and those involving detained aliens accounted for
8 percent (1,519) of the immigration judge case appeals. We determined
that a majority of the appeals were pending for less than 1 year –
66 percent or 11,862 appeals. Almost all of the appeals pending 1 or
more years involved aliens who were not detained. Of the 6,125 appeals
that were pending 1 or more years, 6,112 (99.7 percent) involved non-
detained aliens.

Some appeals took long periods to complete due to BIA processing
delays.

      In our sample of 23 appeals, appeals from non-detained aliens
took the BIA almost 5 times longer on average to complete than appeals
from detained aliens. The average number of days to complete appeals
(counting from the day the notice of appeal was filed to the day the BIA’s
decision was issued) for non-detained aliens was 485 days (16 months).
For detained aliens, it was 105 days (3½ months). Because appeals from
detained aliens are the BIA’s priority, we expected that those appeals
would have shorter processing times. However, the difference in the
number of processing days between non-detained and detained appeals
in our sample is significant and attributable primarily to the volume of
non-detained appeals waiting for review by the BIA’s paralegal
specialists.64

      According to an EOIR official, a paralegal reviews the full case file
to ensure that all critical documents are present, complete, in the correct
order, and pertain to the case. The paralegal also prepares an issue
sheet for the case; tabs important documents; and does a jurisdictional
review to determine whether the appeal was filed on a timely basis,


       63 There were a total of 27,293 appeals pending on May 24, 2011, consisting of

17,987 appeals of immigration judge case decisions, 5,418 appeals of other immigration
judge decisions, and 3,888 appeals of DHS decisions.

       64   There were 16 paralegal specialists at BIA during the period of our review.


U.S. Department of Justice                                                          43
Office of the Inspector General
Evaluation and Inspections Division
whether the parties have standing, and whether a motion to withdraw or
a joint motion to remand has been filed.

      The EOIR official informed us that the technical legal review by the
paralegal usually takes only a few hours as long as the case file is
complete and presents no legal analysis problems. This official said that
the paralegals processed detained appeals immediately after receiving
them from the clerk. However, the paralegals processed the
non-detained appeals in turn from a large queue, an average of 6 to
8 months after the appeals became available for the paralegals’ review.

       We found in our sample that when an alien was detained, a
paralegal reviewed the appeal within an average of 8 days. When the
alien was not detained, a paralegal completed the review in an average of
294 days. Figure 12 shows that, of the three types of reviews conducted
during the BIA process – by the clerk, by the paralegal, and by the staff
attorney and board member – 76 percent of the total processing time for
non-detained appeals in our sample was the time waiting for the
paralegal review and then the actual review. EOIR attributes the delays
to the overall volume of appeals, the fact that detained cases are the
BIA’s priority when allocating its resources, and inadequate staffing
levels.




U.S. Department of Justice                                          44
Office of the Inspector General
Evaluation and Inspections Division
Figure 12: Average Time to Review Non-Detained Appeals in Sample

        
                                                                                                          
                              Staff Attorney/Board Member Review:  
                                                                                                          
                              82 days (21%)
                                                                                                          
                                                                                                          
  Notice of                                                                                            BIA 
   Appeal            Paralegal’s Technical Legal Review:  294 days (76%)                            Decision 
    until                                                                                            Issued 
  Last Brief 
    Filed 

                         Clerk Review:  10 days (3%) 



                0   30   60      90   120   150   180   210   240   270     300   330   360   390
                                               Number of Days
Notes: A flowchart of the BIA’s process is in Appendix II.
The time from the date of the filing of the notice of appeal until the date of the filing of
the last brief averaged 84 days in our sample.
Source: Case Access System for EOIR (CASE) automated system.

EOIR’s completion statistics for appeals do not include the entire
processing time.

      EOIR’s completion statistics for appeals do not include the entire
processing time to review and decide appeals. The interval EOIR counts
varies for each of its goals. According to 8 C.F.R. § 1003.1(e)(8)(i), the
BIA is required to issue its decisions within established timelines based
on the number of board members assigned to review the appeal
(regardless of the detention status of the alien). A single board member
decides the appeal unless it falls into one of six categories that require a
decision by a panel of three board members.65 The goal for one-member
decisions is 90 days. The goal for three-member decisions is 180 days.
In addition to the timelines established in the Code of Federal
Regulations (which are for all appeals), the BIA developed an additional

         65 These categories are the need to: (1) settle inconsistencies among the rulings

of different immigration judges; (2) establish a precedent construing the meaning of
laws, regulations, or procedures; (3) review a decision by an immigration judge that is
not in conformity with the law or with applicable precedents; (4) resolve a case of major
national import; (5) review a clearly erroneous factual determination by an immigration
judge; and (6) reverse the decision of an immigration judge in a final order, other than
nondiscretionary dispositions.


U.S. Department of Justice                                                                      45
Office of the Inspector General
Evaluation and Inspections Division
timeline for appeals involving detained aliens because those are priority
appeals.66 Appeals involving detained aliens are measured twice: once
under either the one- or three-member review timeline and again under
the detained alien case timeline, which sets the goal at 150 days for
90 percent of the detained cases.

      EOIR’s starting point for counting appeal processing days under
each goal is described below:

       	 One-member reviews – The count begins when a staff attorney
          or paralegal is assigned to review the appeal and prepare the
          written decision (includes appeals from detained and non-
          detained aliens).67

       	 Three-member review – After a staff attorney reviews an appeal
          and determines that is it appropriate for a three-member
          review, EOIR begins the count on the date that the board agrees
          with the attorney’s determination (includes appeals from
          detained and non-detained aliens).

       	 Detained alien cases – EOIR begins the count when the alien or
          DHS files a notice of appeal with the BIA, which is the
          beginning of the appellate process.

      As a result of the starting points EOIR uses, its statistics for the
one- and three-member review goals do not reflect the total number of
elapsed days taken to review and decide appeals. Figure 13 illustrates
the basic BIA process. (See Appendix II for a detailed flowchart of the
BIA’s process.)




       66 The Code of Federal Regulations does not provide a timeline to complete
detained cases, but does state that decisions on the merits of the cases must be issued
as soon as practicable with a priority for cases involving detained aliens.

       67 This review is separate from the technical legal review by the paralegal
discussed previously.


U.S. Department of Justice                                                           46
Office of the Inspector General
Evaluation and Inspections Division
            Figure 13: Board of Immigration Appeals Process




Source: EOIR documentation and interviews.




U.S. Department of Justice                                    47
Office of the Inspector General
Evaluation and Inspections Division
       The BIA’s goals for one- and three-member reviews count only part
of the BIA’s process for reviewing appeals, and the parts that are
excluded represent a significant portion of the processing time. For the
23 appeals in our sample, we calculated processing times for one- and
three-member appeals starting from the day the appeal was filed until
the BIA issued a decision, which is the actual time the appellants are
waiting for decisions. While EOIR’s method of calculation showed an
average of 54 days to process an appeal under the one-member goal and
an average of 76 days under the three-member goal, the entire time to
process the appeals averaged 372 and 361 days, respectively. The
differences in EOIR counts and actual total elapsed days are most
noteworthy among the non-detained appeals. EOIR’s longest count for a
non-detained appeal was 154 days. In contrast, the shortest number of
elapsed days for a non-detained appeal was 206 days. Table 3 shows, for
the 23 cases in our sample, the contrast between the number of days
that EOIR uses to measure how long the BIA members take to decide
appeals and the total processing time for appeals.




U.S. Department of Justice                                        48
Office of the Inspector General
Evaluation and Inspections Division
     Table 3: Comparison of EOIR Count of Processing Days and 

                 Total Elapsed Days for 23 Appeals 


                                                     Days
                              One-       Three-       in        Total
                             Member      Member      EOIR      Elapsed    Difference
    Alien Custody Status     Review      Review      Count      Days       in Days
    1.   Detained                                      10        62          52
    2.   Detained                                      16        76          60
    3.   Detained                                      23       121          98
    4.   Detained                                      31       136          105
    5.   Detained                                      43       114          71
    6.   Detained                                      50       110          60
    7.   Detained                                      72       119          47
    8.   Non-Detained                                   5       474          469
    9.   Non-Detained                                   7       250          243
    10. Non-Detained                                   28       364          336
    11. Non-Detained                                   34       670          636
    12. Non-Detained                                   49       456          407
    13. Non-Detained                                   54       206          152
    14. Non-Detained                                   72       700          628
    15. Non-Detained                                   73       651          578
    16. Non-Detained                                   73       304          231
    17. Non-Detained                                   78       671          593
    18. Non-Detained                                   83       342          259
    19. Non-Detained                                   83       634          551
    20. Non-Detained                                   84       610          526
    21. Non-Detained                                   90       387          297
    22. Non-Detained                                   138      545          407
    23. Non-Detained                                   154      493          339

  Notes: EOIR’s count for the one-member review starts with the date that the staff
  attorney or paralegal is assigned to review the appeal to prepare the written decision
  until the date the BIA’s decision is issued.
  EOIR’s count for the three-member review starts with the date that the appeal is
  accepted for review by three members until the date of the BIA’s decision.
  Total Elapsed Days starts with the date that the appeal is filed until the date of the
  BIA’s decision.
  See Appendix II for a flowchart of the BIA process.
  Source: Case Access System for EOIR (CASE) automated system.

U.S. Department of Justice                                                          49
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

       EOIR personnel we interviewed stated that appeals for non-
detained aliens have disproportionate processing delays due to the
paralegal review, which takes months to initiate but only hours to
complete. EOIR also attributes the delays to the volume of appeals and
too few staff members. Further, EOIR’s tracking method for the length of
appeals does not include total processing times for appeals. Depending
on the type of review – one or three board members – EOIR counts the
appeal processing time from different starting points. These different
starting points significantly skew the reported achievement of its
completion goals for appeals and impede EOIR’s effective management of
the appeals process. The total number of days taken to review and
decide appeals, not EOIR’s count of days, represents how long the aliens
and the DHS wait for decisions on their appeals.

Recommendations

     To provide accurate and complete information for managing
appeals at the BIA, we recommend that EOIR:

       8. consider seeking additional resources or reallocating resources
          to reduce delays in the processing of appeals for non-detained
          aliens; and

       9. improve its collecting, tracking, and reporting of BIA appeal
          statistics to accurately reflect actual appeal processing times.




U.S. Department of Justice                                             50
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       EOIR does not collect and report complete performance data about
the immigration courts, which can conceal problems and overstate
accomplishments. For example, EOIR excludes nearly a third of
immigration court cases from being measured in the performance reports
that it uses to track the timely completion of cases. Further, EOIR
discontinued any timeliness goals for non-detained cases. It now has
timeliness goals only for detained cases and asylum cases even though
some courts have few, if any, detained cases. Although we agree that
EOIR should prioritize the completion of detained cases, EOIR should
have goals for the non-detained cases as well. EOIR also reports cases
as completed even when no decisions have been made on whether to
remove the aliens from the United States. After cases have been
administratively closed, they may be later reopened and thus result in
EOIR reporting multiple receipts for the same cases.

      From FY 2006 through FY 2010, the volume of immigration cases
received outpaced many immigration courts’ capability to process the
cases on a timely basis even though there was an increase in the number
of judges. Cases, especially those for non-detained aliens, can take long
periods to complete, which crowds court calendars and delays processing
of new cases. Over the 5-year period, the number of cases pending one
year or more increased by 85 percent.

      Adding to the case processing times are the frequent continuances.
In our sample of 1,785 closed cases, 953 cases (53 percent) had one or
more continuances. Each of those cases had, on average, four
continuances, and the average amount of time granted for each
continuance was 92 days (about 3 months), resulting in an average of
368 days per case.

      We found that EOIR has provided only limited guidance to
immigration judges to supplement the past BIA and federal court
decisions on whether to grant a continuance request and for how long to
adjourn cases. In our case sample, we found significant differences in
the number of continuances granted and the total amount of time
allowed for continuances. Cases in which judges granted more than two
continuances for aliens to seek representation resulted in an additional
206 continuances, which extended the 57 cases by a total of 8,581 days.

      Staffing decisions can affect the court system’s capability to
process immigration cases. We found that EOIR does not collect full

U.S. Department of Justice                                         51
Office of the Inspector General
Evaluation and Inspections Division
information about how court personnel use their time and does not have
a sound staffing model to determine staffing requirements and the
allocation of positions among immigration courts. EOIR could develop a
staffing model by reviewing methodologies used by federal and state
courts in determining their personnel requirements.

       From FY 2006 through FY 2010, the BIA was able to complete
more appeals of immigration judge case decisions than it received and
thus reduced the appeals pending processing. In our sample of
completed appeals, the BIA processed appeals involving non-detained
aliens significantly slower than appeals involving detained aliens.
Appeals for non-detained aliens have disproportionate processing delays
due to the paralegal review, which EOIR attributes to the overall volume
of appeals, the priority given to detained cases, and inadequate staffing
levels. EOIR’s completion statistics for appeals do not include the entire
processing time to review and decide appeals. Therefore, significant
delays in processing are not reflected in the statistics.

     Below, we restate our overall recommendations for improving
EOIR’s management of the immigration courts and the BIA.

Recommendations

      To improve its case processing and provide accurate and complete
information on case processing, we recommend that EOIR:

       1. improve reporting of immigration court data to distinguish
          decisions on the removal of aliens from other case activities and
          reflect actual case length even when more than one court is
          involved;

       2. eliminate case exemptions from completion goals to reflect
          actual case length, but identify case delays that EOIR considers
          outside the control of immigration judges;

       3. develop immigration court case completion goals for non-
          detained cases;

       4. analyze reasons for continuances and develop guidance that
          provides immigration judges with standards and guidelines for
          granting continuances to avoid unnecessary delays;

       5. develop a process for tracking time that immigration judges
          spend on different types of cases and work activities;

U.S. Department of Justice                                           52
Office of the Inspector General
Evaluation and Inspections Division
       6. collect and track data on its use of staffing details of judges;

       7. develop an objective staffing model to assist in determining
          staffing requirements and the allocation of positions among
          immigration courts;

       8. consider seeking additional resources or reallocating resources
          to reduce delays in the processing of appeals for non-detained
          aliens; and

       9. improve its collecting, tracking, and reporting of BIA appeal
          statistics to accurately reflect actual appeal processing times.




U.S. Department of Justice                                              53
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX I: IMMIGRATION COURT PROCESS 





    Source: EOIR documentation and interviews.




U.S. Department of Justice                             54
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX II: BOARD OF IMMIGRATION APPEALS PROCESS 




                        Party files
                 notice of appeal at BIA
                START OF OIG'S COUNT
                          and
          START OF EOIR'S DETAINED ALIEN
                  REVIEW COUNT




                  Briefing schedule
                                                    Briefs received
                         set




                                                                              Screening ATTORNEY
                                                   Screening ATTORNEY               assigned
                                                       reviews case          START OF EOIR'S ONE­
                                                                            MEMBER REVIEW COUNT




                                                                                   MERITS PANEL
                                                                                    reviews case




                      BOARD
                     MEMBER                         One board member
                       signs          Accep
                                                         review
                     decision




                     BOARD
                                                                                        ..
                                                                                       Yes


                                                                                Board member accepts
                                                                                    case for three
                    MEMBERS                        Three board member           board member review
                                              t-          review        ~
                      sign                                                    START OF EOIR'S THREE-
                    decision                                                  MEMBER REVIEW COUNT




        Docket team reviews
      case and issues decision

           STOP COUNT




    Note: This flow chart does not include every step in the process. It excludes, for
    example, actions as a result of defective submissions or board members returning
    orders to staff attorneys to be revamped.
    Source: EOIR documentation and interviews.


U.S. Department of Justice                                                                             55
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX III: OIG SAMPLE OF CLOSED CASES 

                   AT THE IMMIGRATION COURTS 



      To examine case processing at the immigration courts, we
requested that EOIR provide us with specific data elements for a random
sample of individual removal cases that were closed during calendar year
2009 at the following 10 immigration courts:

       1.    Arlington, Virginia;
       2.    Chicago, Illinois;
       3.    New York City, New York;
       4.    Seattle, Washington;
       5.    Tacoma, Washington;
       6.    Tucson, Arizona;
       7.    Eloy, Arizona;
       8.    Harlingen, Texas;
       9.    Port Isabel, Texas; and
       10.   San Diego, California.

       We selected these 10 courts because they represent a mix in terms
of size (as measured by the number of immigration judges at each court),
geographical diversity, and because they collectively handle a wide
spectrum of case types. We limited our request to removal cases because
these cases account for the vast majority of cases that the immigration
courts handle each year.68 However, we did not include Institutional
Hearing Program removal cases in our request because these cases
involve criminal aliens serving sentences in prison for criminal
convictions.69

      In response to our request, EOIR provided us with over 30 data
elements for 2,500 cases. After deleting some cases (for example,
removing cases from the sample that did not have a final decision
regarding whether or not an alien would be removed from the United
States during calendar year 2009), the final sample was 1,785 cases. We
used this sample to represent generally how the immigration courts
process the caseload.


       68 According to EOIR’s FY 2010 Statistical Year Book, removal cases accounted

for 318,435 of the total of 325,326 cases received (98 percent) and 280,420 of the total
of 287,207 cases completed (98 percent) at the immigration courts during FY 2010.

       69 According to EOIR, Institutional Hearing Program cases constitute only
2 percent of total removal cases.


U.S. Department of Justice                                                            56
Office of the Inspector General
Evaluation and Inspections Division
        We classified the sample of closed cases into types based on EOIR’s
categories. EOIR categorizes a case based on its status when the case is
completed. However, those categories may not have been consistent
throughout the time the case was pending at the courts. We found that
some of the non-detained cases in our sample included cases in which
the alien was initially detained but subsequently released from custody.
Consequently, because an alien’s custody status can change during the
life of the case, we created a case type that EOIR does not use – that is,
mixed custody. Table 4 provides information on the seven case types we
analyzed.

             Table 4: Case Types in OIG Sample of Closed Cases
                                                                         Number     % of
No.     Case Type             Description
                                                                         of Cases   Total
        Detained without      Alien was detained during the entire
  1     applications for      case and did not seek relief from               691    39%
        relief from removal   removal by submitting an application
                              Alien was detained during the entire
        Detained with
                              case and sought relief from removal by
  2     applications for                                                      264    15%
                              submitting an application (other than
        relief from removal
                              asylum)
        Non-detained with     Alien was never detained and sought
  3     applications for      relief from removal by submitting an            223    12%
        relief from removal   application (other than asylum)
        Non-detained
                              Alien was never detained and did not
        without
  4                           seek relief from removal by submitting          209    12%
        applications for
                              an application
        relief from removal
        Mixed custody
                              Alien was detained during a portion of
        with applications
  5                           the case and sought relief from removal         206    12%
        for relief from
                              by submitting an application
        removal
        Mixed custody
                              Alien was detained during a portion of
        without
  6                           the case and did not seek relief from           109     6%
        applications for
                              removal by submitting an application
        relief from removal
                              Alien was never detained and sought
  7     Asylum                                                                 83     5%
                              relief from removal by filing for asylum
Total                                                                       1,785   100%
Note: Percentages do not add to 100 due to rounding.
Source: Case sample data from EOIR.

       Our analysis of case processing times was based on the amount of
time that elapsed from when the DHS served the court with a copy of the
notice to appear until the immigration judge rendered a decision to order
the alien removed from the United States, grant relief, or terminate the
case. It does not include the time a case was closed and later reopened,
such as cases that were on appeal at the BIA or administratively closed.

U.S. Department of Justice                                                            57
Office of the Inspector General
Evaluation and Inspections Division
Of the 1,785 cases in our sample, 146 were closed and later reopened
(8 percent). Of the 146 cases, 50 cases (3 percent of the cases in our
sample) were appealed to the BIA and remanded to the immigration
courts; 45 cases (3 percent of the cases in our sample) were
administratively closed and later reopened; 43 cases (2 percent of the
cases in our sample) were closed due to a judge’s decision and later
reopened; 6 cases (0.3 percent of the cases in our sample) were
administratively closed, appealed to the BIA, and remanded to the
immigration courts; 1 case (0.1 percent of the cases in our sample) was
closed and later reopened because it had an administrative closure and a
decision; and 1 case (0.1 percent of the cases in our sample) was closed
and later reopened because it had a decision and the immigration judge
granted the alien temporary protected status.70

       To determine the reasons and sources for continuances, including
the amount of time cases were delayed by continuances, we analyzed
continuance code data that was included in our sample of closed cases.
When a case is adjourned, the immigration judge is required to use a
two-digit code that indicates the reason for the continuance. Each
continuance code assigns responsibility for the delay to one of the parties
(alien, court, or the DHS). A court support staff member enters this code
along with the date when the immigration judge granted the continuance
into EOIR’s automated case tracking system. To identify common
reasons for alien-requested and DHS-requested continuances, we
grouped continuance codes with similar descriptions.71 We determined
the amount of time a case was delayed by a continuance by counting the
number of days that elapsed after the continuance until the next
continuance or completion.




       70 Temporary protected status is a temporary form of relief from removal that

takes the case off the court calendar until the DHS files a motion to reopen the case.
The Secretary of Homeland Security has the authority to designate a foreign country’s
nationals for temporary protected status if adverse conditions preclude those nationals
from safely returning home.

       71   As of March 2009, there were a total of 62 continuance codes.


U.S. Department of Justice                                                           58
Office of the Inspector General
Evaluation and Inspections Division
                  APPENDIX IV: PENDING CASELOAD AT 

                      THE IMMIGRATION COURTS 



      To determine the age and characteristics of the immigration courts’
pending caseload, we requested that EOIR provide us with specific data
elements for every removal case that was pending (except Institutional
Hearing Program removal cases) on an agreed-upon date. In response,
EOIR provided us with 7 data elements (including case type and the date
each case was originally received at the immigration court) for 252,925
cases in which a final decision regarding whether an alien would be
removed from the United States had not yet been reached on August 3,
2010. According to EOIR, these cases were all of the removal cases that
were pending at the immigration courts on that date. We limited our
review to removal cases because these cases account for the vast
majority of cases that the immigration courts handle each year.

      We believe that the data characteristics on one day are sufficiently
similar to any other day within a reasonable time frame. Therefore, we
are using these data to represent generally the condition of the
immigration court’s pending caseload at that time.

       EOIR classifies its cases by type, and we used the same case types
to categorize the pending caseload. EOIR’s classification of a case is
determined by the status of the alien as of the case’s last completion.72
The case types are either that the alien is detained or not detained and
either the alien has applied for relief from removal or not. The case types
may or may not be the type the cases started as or what they may end
up to be when a final decision is rendered because aliens may be
released from detention or submit or withdraw applications for relief from
removal while the cases are pending.

      To determine the amount of time a case was pending, we counted
the number of days that elapsed from when the DHS served the court
with a copy of the notice to appear until August 3, 2010. Consequently,
our analysis of the age of the pending caseload on that date includes the
time that elapsed for those cases that were outside the control of the
courts; that is, for cases appealed to the BIA and remanded back to the
courts or cases administratively closed and later reopened. However, we
believe that these cases represent a small percentage of all cases and
therefore would not have a significant impact on the overall age of the
pending caseload.

       72We asked EOIR to provide us with the case types as of August 3, 2010, even
though the cases were still pending.


U.S. Department of Justice                                                       59
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX V: EOIR RESPONSE TO DRAFT REPORT 




                                                                U. S. Department of Justice
                                                                 .S.

                                                                Executive Office for Immigration Review

                                                                Office o/the Din'c /or
                                                                Office of the Dir(!{' /ol'
                                                                       a/the     et'


          Dir.:cwr
          Director
          Di r.:clClr                                           5 /07 ul',lbul1: Pd./,. Suitt'
                                                                5/07 Lt-I'.\b",~ Pd.!'.
                                                                5107 uf.lbu/"!,: PiJ..{,. Suite 2600
                                                                "-,11/1 CI!III\'h, Vi':r.:;II;" 2204/
                                                                r,,1/1 Clml\'h, Vil:r.:ill;II 2?().J1
                                                                ri,1/1 C/1I11t·h. Vil:r:illill



                                                               September 14, 2012
                                                                         14 ,



              MEMORANDUM

              TO:           Jason R. Higley
                            Acting Assistant Inspector General for
                            Evaluation and Inspections
                            Office of the Inspector General
                                                    Oeneral


              FROM :        Juan P . Osuna I
                            Director        7 ~
                                             ~;!
                                             A;!
                            Executive Office for Immigration Review


             SUBJECT :      EOIR's Response to the OIG ' s Report: Management of Immigration
                                                   OIO's
                            Cases and Appeals by (he Executive Office fOr Immigration Review
                                                 the

                     The Executive Office for Immigration Review (EOlR) has examined the
                                                                     (EOIR)
             Department of Justice (DOJ), Office of Inspector General 's (OIG) Draft Audit Report .
                                    (DOJ).                      General's
                                                                Oeneral's (010)              Report.
             entitled: Managemenl of Immigration Cases and Appeals by the Executive Office for
                       Management                                            the
             Immigration Review (Report) . EOlR recognizes the OlO's effort to ensure that the public
                                  (Report). EOIR                   OlG's
                                                                   OIG's                      the
             is aware of EOIR 's caseload and its efficient processing of cases . EOIR's mission
                              's                                           cases.
             remains focused on adjudicating immigration cases by fairly, expeditiously , and
                                                                      fairly. expeditiously,
             uniformly interpreting and administering the Nation's immigration laws .

             General Response

                     The main focus of the Report is a criticism of the manner in which EOlR anal yzes
                                                                                         EOIR
                                                                                           OIR
             and reports its data both for internal performance measurement and external performance
                                                    perfonnance                            perfonnance
             reporting . The report's conclusion that EOIR's external reporting could be clearer is well
             reporting.
             taken and the agency intends to report the additional information recommended by the
                                                                    infonnation
             Report. As noted below, the agency last year came to the same conclusion and is
                                                     last    carne
             working to enhance its data reporting . However, the Report also concludes that these
                                           reporting. However,
             reports are necessary in order for the agency to identify perfonnance areas that require
             improvement,, without any specific infonnation on how those reports could be used to
             improvement                           information
             identify areas for improvement or assist management in the efficient processing of cases ,
                                                                                                  cases,
             and this is where EOIR disagrees with many of the Report's conclusions .
                                                                           conclusions.




U.S. Department of Justice                                                                                 60
Office of the Inspector General
Evaluation and Inspections Division
            Memorandum for Jason R. Higley                                                       Page 2
            Subject: EOIR's Response to the OIO's Report: Management o/Immigration
                                            D IG's        Monogement o/ImmigrOtion
                                                          MOllogement
                    Cases ond Appeols by the Executive Office/or Immigration Review
                          and Appeals                            Immigrotion
                                                                 Immigrotioll

                   The Report conflates the distinction between the external clarity of EOIR reports
           and their internal usefulness . The Report concludes that EOiR's performance reports are
                              usefulness.      Report                  EOIR's perfonnanc e
                                                                              perfonnance
           "incomplete" and "overstate accomplishments." Howeve r, the 010 misunderstands the
                              "overstate                        Howeve      O[G
                                                                            DIG
           PlUpOse of the management reports. As an initial maner, case completion reports are
           purpose th e                  reports.
           intended to measure court workload so that the agency can more effectively balance
           resources among the immigralion courts to accomplish its mission. These reports were
                                  immigration
           never intended to promote the agency's accomplishments to the public but instead were
           developed as internal tools to prov ide th e courts and EOIR management with critical
                                           provide the
                                           provi                   ED IR
                                                                   EO
           infonnation about the processing of cases.
           information         the

                     The 010 report claims that the agency overstates the number of matters opened
                          OIG
                          DIG                                                          mailers
           by the immigration court and the number of cases completed by the agency. EO IR does
               th e                                                                         EOIR
           not overstate the number of matters and receipts received by the courts. The agency's
           Statistical Yearbook, published annually on the agency's website, defines all terms and
                                                                                            tenns
           explains each of its statistical conclusions. The term " matter" and the term "receipt" are
                                                              tenn mailer"       th e tenn "receipt"
           clearly defined in the agency's reporting statistics and are intended to commun icate the
                                             reporti ng                              communicate
           amount of work received by the courts from the actions that d e fine those terms. EOIR
                                                          the
           Statistical Yearbook 2011 at 51. 5y disagreeing with the ag e ncy ' s clea r and public
                                  201 1 BI. By                          agency clear
           d efinition of a "completion," the report confuses what EOIR statistics actually measure
             efini tion
              finition       "completion,
                              completion,"                                                     e asure
                        th e DIG
           with what the 010 believes EOIR should measu re..
                                                        measur
                                                        measure.

                   The Report also characterizes EOIR performanc e reports as "inaccurate" but
                                      characteri7..es EO IR perfonnance
           never specifically states where the data is inaccurate. In actuality , the report's concern
                                                          inaccurate.   actuality, the
           about EOIR data is not with its accuracy but with its usefulness. There were no specific
           findings of statistical flaws in EOIR's data or in its reports , just a suggestion about what
                                            EOI R's                reports,
                                                                   reports,just
           additional information the 010 believes would be useful to the puhlic and additional
                      infonnation        OIG
           ways in which the agency's data can be reponed. To the extent that the 010 helieves that
                                                       reported.         e xtent         DIG believes
           the age ncy ' s public reporting could be made clearer, the agency is willing to publically
                agency's
           report infonnation as suggested in the Report. However, EOJR strongly disagrees with
                  information                                            EOIR
           stat ements that the agency's internal manageme nt reports are "inaccurate ."
           statements        the                     management               "inaccurate.

           Spedfic lo acc urades
           Specific la lccurades
                    IO

              •   On p. 29, the Report states that "[tJhe Department of Justice's costs also rise as
                                                    "[t]he
                  time spent processing cases increases, as do the costs for those representing the
                                                                                   repr
                                                                                   rep re senting
                  aliens." The Report does not provide any factual support for this statement .
                                         docs     provide                            statement.
                  EOJR believes that it would be helpful if the 010 would be willing to share the
                  EOIR                                          D IG
                                                                DIG
                  analysis that led 10 this conclusion as we have not necessarily reached the same
                                    to this                           necessaril y
                  conclusion.

              •   Also on p. 29, the Reports states: "Delays in case processing for detained cases
                                             states:                            fo r
                  also increase associated DHS detention costs. " This appears to suggest that there
                       inc rease                          costs."                 suggeslthat
                  are delays in detained case processing, yet the 010 did not analyze or comment
                                                                  DIG     not




U.S. Department of Justice                                                                                 61
Office of the Inspector General
Evaluation and Inspections Division
           Memorandum for Jason R. Higley
                                  R.                                                               Page 3
           Subject: EOiR's Response to the OIG's Report: Management 0/ Immigration
                    EDIR's                 DIG's Report:              of
                    Cases and Appeals by the Executive Office/or Immigration Review
                                                       Office for

                   upon delays in detained case processing. Indeed it would be hard pressed to do so
                   as detained cases are resolved with exceptional speed through the system, as th e
                                                       ex~ptional                the
                   DIG's own chart shows. See Report, p. 28, Figure S.

               •   The Report contains flowcharts intended to illustrate the agency's case processing
                                                                         the
                   (Figure 13 ; Appendix I; Appendix II). These flowcharts indicate that their source
                                                      II).
                   is EDIR . EDIR did not create th ese flowcharts for the 010. Instead, th e agency
                      EOIR EOIR                  these                     DIG. Instead, the
                   provided technical infonnation and subsequent corrections to the charts that were
                                      information
                   created by the DIG.


           Th e R epo rt's Recom mendatio n!
           T h eport 's commendatio s

           Recommendation I:.. Improve reporting 0/ im migration court data 10 distinguish
              ecommendation I Improve              of imm ralio                  to distinguish
                             em01.lal 0
                                      /
           decisions on the removal 0/ aliens/rom oth er case activities and reflect actual case
                                                     the           acti1.lilies reflect       clUe
           l ength even wh en more than one court is invo /l'I!d..
              ngth      whe                           nllOl ved

           EOIR eo ncu n in th is rec ommendation .
                concu       tb recommenda tion.

                    The Report reaches spe<:ific conclusions regarding EO IR 's definition ofa
           "completion" and the etTect that definition has on both internal performance
                                   effect                                    perfonnance
           measurement and external perfonnance reponing. The Report first criticizes EO IR 's
                                        performance reporting.
           detennination to repon "cases as completed even when no decisions have been made
           determination report
           whether to remove the aliens from the United States" and that EO IR does not count the
                        remove
           total time it takes to complete each case from th e date the Notice to Appear is filed in
           court to the date of a final order of removal.

                    The hearing or hearings conducted at the immig ration court that !"e(:eives the
                                                                 immigration             receives
           Notice to Appear, including any motions, require administrative work, research, and a
           decision by the judge. For example, with regard to a motion to change venue, the judge
           revi ews th e history of the case, listens to previous hearings , examines reasons cited by
                     the                                          hearings,
           counselor the respondent, balanc es competing factors (e.g., administrative convenience,
           expeditious treatment of the case, location of witnesses, cost of transporting witnesses
           and evidence, and locations of the respondent and counsel), and detennines if there is
                                                                                detennine s
           "good cause" to change venue based on reg ulations and case law, such as Malter oj
                                                        regulations                        Maller of
           Rahman, 20 I&N Dec. 480 (BIA 1992). While the decision on a motion to change venue
                                  ec.
           is not a fi nal decision on the alien's removability, it is important to take into account
                    final                                                           take
           these types of decisions in measuring employee and court performance because the above
                                                                          perfonnance            the above
           actions use judge and support staff time. In other wo rds, not every decision mad e by an
                                            statTtime.            words,                      made
           Immigration Judge in a given case is a decision on whether to order th e alien remov ed.
                                                                                               removed.
           Yet these othe r types of decisions, including changes of venue, motions, bonds, and
                       other
           others, require substantial judge and staff time, and thus are relevant to assessments obout
                                                    statTtime,                                       about
               efficiency particu lar COUI1S.
           the effic iency of particular courts.




U.S. Department of Justice                                                                                   62
Office of the Inspector General
Evaluation and Inspections Division
            Memorandum for Jason R. Higley                                                           Page 4
            Subje<:t: EOIR's Response to the O[G's Report: Management of Immigration
                      EOIR' s                OIG's                    a/Immigration
                     Cases and Appeals by the Executive Office/or Immigration Review
                                                        Office for


                     In addition, EOIR focuses on decisions at each court location because each case is
            separately managed at the local court level throughout the country. If a case begins anew
            at a second court, for example through change of venue or transfer, th e judge must rev iew
                                                                                       the
            all of th e actions tak e n previously, listen to prior hearings, and the staff must updat e all
                   the
            data entry. It is , fo r all praclical purposes, a new case at the receiving court. By using
                  entry. [t is,          practical
            completion data for each court, as opposed to the total time to complete each case, EO IR  EO[
            can pinpoint the efficiencies at each location. A single measurement that measures the
            date the Notice to Appear is filed to the date there is a final adjudication on the case
            would mask whether there was an unreasonable delay in the case's progress as it moved
                                                                               case' s
            from one court location 10 anoth er.
                                         to another.

                   EO IR recognizes that the data colle<:ted in its CASE system and analyzed for
                                    thatlhe       collected
           internal performance measurement is now being used to communicate information to the
           public regarding the agency's case processing and performance. As a result ofEOIR 's
                                                                                         ofEOIR's
           own recognition of the limitations of the performance reporting it provides and an
           understanding that we may need to communicate our performance to the public
                                               commwticate
           differently, in September 20 11 the Director created the EOIR Data Working Group to
                                                                  th e          Worki ng
           address these issues. As mentioned in the Report, the Data Work ing Group met from
                                    men t                               Working
           October 2011 to lune 2012 and anticipates producing a report fo r the Dire<:tor with
                             June                                                  irector
           recommendations on external reporting measurements in the fall of2012..
                                                                              of2012

                   To the extent tha t the Report concludes that the agency report case specific
                                 thaI
           information along with court specific information, EOIR concurs in Ihis recommendation
                                                                                  this
           and will begin reporting immigration court data to distinguish decisions on the removal
           of aliens from other case activities and reflect case length by the end of FY 2013 .
                                                                                         2013.

           Recommendation 2: Eliminate cose exemptions/rom completion goals 10 reflect actu al
             ecommendotion                   case        ions/rom compiellon           to fleCI clllol
           case lenglh, but
           cose length, bllt identify cose delays thaI EOIR considers oll tside th e control 0/
                                      case        that                 utside the            of
                        judges.
           immigration jlldges.

                 oncun tbi s ~c ommend a lioD .
           EOIR conC in tb is rec omm enda tion.
                    Uf"lI

                    The Report criticizes the usefulness of the agency's completion goals in ensuring
                                                                agency ' s
           that cases are completed in a timely manner because a percentage of our cases are
           exempted from our goals. We first nole the ultimate validity of this criticism is based on
                                                 note
           how "timeliness" is defined . EOJR determined that in order for completion goals to
                 "timeliness"
           consti tute a valid internal performance measure of timeliness, we shou ld exclude the time
           constilUt e                                                     w
           periods when cases are delayed for reasons outside of an Immigration Judge's contro l.
           Therefore, as an internal performanc e measure, ou r completion goals , with exemptions,
                                       performance                          goals,      exemptions,
           accurately measure the Immigration Judges ' and courts' performance in this area .
                                                  ludges'




U.S. Department of Justice                                                                                     63
Office of the Inspector General
Evaluation and Inspections Division
           Memorandum for Jason R. Higley                                                    Page 5
           Subject: EOIR's Response to the O IG's Report: Management o/Immigration
                    Cases and Appeals by the £;CecUlive Office/or Immigration Review

                   In the cases studied by the Report, OIG found that 39 pen:ent of the Department
           of Homeland Security's (DHS) requests for continuances were granted to complete
           mandatory background investigations and security checks of aliens seeking relieffrom
           removal. The Report also states that these continuances averaged 132 days. The Report
           does not say how measuring length of what amounts to a mandatory continuance in an
           overall perfonnance measure ofan inunigration Judge's ability to process a case would
           assist agency management in analyzing efficient case processing or whether an
           Immigration Judge is completing a case in a timel y manner. An Immigration Judge
           cannot grant relief without completed background checks and has no control over how
           long these checks may take at DHS.

                   However, ifit is the Report's conclusion that completion goals are also meant to
           infonn the public as to how many cases the agency can complete in a set amount of time,
           without taking into consideration any of the delays outside of the control of the
           Immigration Judge, we accept that this infonnation may be useful and the agency will
           begin to engage in this reporting by the end of FY 2013.

           Recommendation J: Develop immigration court case completion goals/ or non­
           detained cases.

           EOIR partially eone urs in tb is r ecommend ation,

                   The Report stales that EOIR abandoned all goals for non-detained cases, with the
           exception of asylum cases, and consequently has no measures for assessing perfonnance
           of courts processing primarily non-detained cases. That conclusion is incorrect for
           various reasons. First, it minimizes the impact of asylum cases on our caseload. While
           asylum cases may account for less than half of the caseload at some of our courts that
           primarily process non-detained cases, asylum cases are very time intensive and generally
           take more processing time and immigration court resources than other non-detained
           ,=.
                   Second, the change in case completion goals was made to clearly communicate
           the agency's priOrities, and as the Report acknowledges, EOIR's emphasis on detained
           cases is proper. It appears that the 010 believes that our completion goals, as a whole,
           should be set to serve as a measure of our perfonnance as opposed to a communication of
           the agency's priorities. However, we note that the Report does not provide any analysis
           of how this infonnation can be used internally to assist the agency in efficient overall
           processing of cases. EOIR believes that some examination of how this information can
           be used to assist management in analyzing efficient case processing must be done before
           committing to establishing additional goals. Therefore, EOIR will examine whether
           establishing additional goals would assist in measuring agency perfonnance and serve as
           a useful management tool for identifying the need for efficiencies in cenain areas. EOIR
           will complete this assessment by the end ofFY 2013.




U.S. Department of Justice                                                                            64
Office of the Inspector General
Evaluation and Inspections Division
            Memorandum for Jason R. Higley                                                      Page 6
            Subj~t: EOIR's Response to the OIG's Report: Management of Immigration
                    Cases and Appeals by the Executive Office for Immigration Review


            Recommendation t/: Analyze reasonsfor continuances and develop guidance that
            provides immigration judges with standards and guidelinesfor granting continuances
            1 ovoid unnecessary delays.
             0

            EOIR partIally concurs in fh is recommendation.

                    In response to the January 2012 working draft report's inference that the agency
            could place clear and definite limits on continuances across all cases, EOIR responded by
            advising the OIG that controlling caselaw regarding a showing of "good cause" for a
            continuance found due process concerns implicated by any approach that placed greater
            emphasis on case management concerns than fairness. While acknowledging that EOIR
            informed the OlG of the well-established body of law regarding continuances, the Report
            did not analyze those precedents before continuing to assert the belief that EOIR should
            provide funher direction on the use of continuances. In particular the OlG continues to
            suggest that EOJR provide gUidance with regard to what qualifies as good cause for
            granting continuances, and to thc elltent possible, identify what is reasonable in terms of
            the number and length of continuances in frc:quently-encountered circumstances. A
            reading of even some of the relevant federal caselaw establishes that the recommendation
            in the Report is legally problematic.

                   in Hashmi v. Allorney General of United Slates, 531 F.3d 256 (3 111 Cir. 2008),
           after multiple adjournments, an Immigration Judge denied a continuance request finding
           that he had an obligation to complete cases in a reasonable amount of time and the goal
           for completion of the type of case before him had already been exceeded by almost a
           year. The United States Court of Appeals for the Third Circuit held that reaching a
           d~ision about whether to grant or deny a motion for a continuance based solely on case­
           completion goals, with no regard for the circumstances of the case itself, is impermissibly
           arbitrary.

                   in Baires II. INS, 856 F.2d 89 (9'" Cir. 1988), an Immigration Judge denied a
           request for a continuance finding that the timing of the request would result in
           administrative inefficiency if granted. The United States Court of Appeals for the Ninth
           Circuit found that the immigration Judge's inflellibility deprived the alien of a fair
           opportunity to present his case.

                   In Cui v. Mu/casey. 538 F.3d 1289 (9'" Cir. 2008). an Immigration Judge denied a
           request for a short continuance for the alien to comply with fingerprinting requi remcnts
           where the case had been continued seven times over the course of2 V. years and Ihe
           Immigration Judge had speCifically informed the alien's attorney at a prior hearing that
           the fingerprinting requirements had 10 be met prior to the nCllt hearing. The Ninth Circuit
           found no inconvenience to the immigration Court in granting the continuance and found
           that the denial of another continuanu entirely deprived the alien of an opportunity to




U.S. Department of Justice                                                                                65
Office of the Inspector General
Evaluation and Inspections Division
            Memorandum for Jason R. Higley                                                       Page 7
            Subject: EOIR's Response to the OIG's Report: Management o/Immlgration
                     Cases and Appeals by the Executive Office/or Immigration Review

            present her case. The Ninth Circuit stated that, " As frustrating as delays may be, an
            immigrant's right to have her case heard should not be sacrificed because of the l1's
            heavycaseload." See id. at 1295.

                   In Varperyan v. Holder, 406 Fed. Appx. 236 (9'" Cir. 2010), an Immigration Judge
           denied a continuance requested at the hearing by substitute counsel who asserted he
           needed time to familiarize himself with the case. The Ninth Circuit disregarded the
           import of the three continuances previously sought by the alien that had been granted and
           found no inconvenience to the government in granting another continuance. The Ninth
           Circuit noted that the interest in administrative efficiency cannot justify the pretennission
           ofalien's claims where other factors militate strongly in the alien's favor.

                    In Freire v. Holder, 647 FJd 67 (2 nd Cir. 2011), the agency denied the alien's
           motion to reopen for reasons grounded in an inefficient use of court resources, finding
           that it would be injudicious to grant a continuance to await a decision on a maner over
           which it had no controL The Court found that the facts of record relevant to the motion
           for continuance had not been adequately considered.

                   Finally, in Maller o/Hoshmi, 24 I&N Dec. 78S (BIA 2009), the Board of
           Immigration Appeals, in responding to the Third Circuit decision set forth above,
           identified a multitude of factors to be considered by Immigration Judges in assessing
           whether good cause for a continuance·to pursue an adjustment of status application has
           been established. The Board expressly stated that compliance with an Immigration
           Judge's case completion goals is not an appropriate factor in deciding a continuance
           request. Moreover, the Board cautioned that the number and length of prior continuances
           were not alone detenninative and had to be considered under the totality of the
           circumstances.

                    As an administrative tribunal, subject to the controlling authority of the federal
           circuit coutts of appeal, EOIR is bound to follow the guidance of federal cowu
           concerning the facts to be considered in every case in assessing whether good cause for a
           continuance has been established. Similarly, Immigration Judges are also bound to
           follow the guidance of the Board in addressing motions for continuance. In this regard,
           EOIR has provided guidance to Immigration Judges through decisions of the Board that
           set forth specific factual scenarios that do or do not constitute good cause for a
           continuance, such as Maller o/Sibrun, 18 I&N Dec. 354 (BIA 1983), Maller a/Silva.
           Rodriguez, 20 I&N Dec. 448 (BIA 1992), Maller 0/ Hashmi, supra, and Maller o/C.B.,
           2S I&N Dec. 888 (B IA 2012).

                   Consistent with the above review of federal and administrative caselaw, any
           policy guidance by EOIR that seeks to limit the granting of continuances generally by
           pre-detennining the reasonableness of a continuance request based upon the number and
           length of previous continuances, and a desire to meet case completion goals, is an




U.S. Department of Justice                                                                                 66
Office of the Inspector General
Evaluation and Inspections Division
           Memorandum for Jason R. Higley                                                       Page g
           Subject: EOIR's Response to the OIG's Report: Management o/lmmlgralion
                    Cases and Appeals by /he Executive Office jor Immigralioll Review

           approach doomed to failure upon judicial review. The federal courts and the Board have
           stressed that such considerations cannot override the specific focts underlying each
           individual request for a continuance without impinging upon the fundamental fairness of
           the removal proceedings.

                   Thus, whi le setting forth a mechanized policy consistent with the approach urged
           by the Report would unquestionably have the effect of reducing the number of
           continuance requests granted by Imm igration Judges, the end result would not be the
           more efficient disposition of cases before the Immigration Judge envisioned by the
           Report. Rather, by providing aliens who might otherwise have no factual or legal basis
           for disputing the Immigration Judge's decision in their removal proceedings with a
           legitimate basis for appeal grounded in administrative and federal circuit precedent, the
           policy directive envisioned by the Report would likely increase both the total number of
           appeals and the number of successful appeals from Immigration Judge decisions based
           solely on the denial of continuance requests, unnecessarily keeping otherwise meritless
           cases pending through the appeals and remand process for years past the date those cases
           would ordinarily have been concluded.

                  However, EOIR wilt develop specific training to be presented to the Immigration
           Judges in 2013 that will provide them with an update on the case law related to
           continuances. Such training will include written materials that the Immigration Judges
           can then refer to when adjudicating cases. This training will be implemented in FY 2013.

           Recommendation 5: Develop 4 process/or tracking time that immigration judges spend
           on different types 0/ cllSes and work activities.

           Recommendation 6: Collect and track data on its use o/staffing details o/judges;

           Recommendation 7: Develop 4n objective staffing model to assist in determining
           staffing requirements and the al/ocation o/positions among immigration courts.

           EOIR tontun witb re<:oJDJDendations 5, 6, a nd 7.

                    EO IR recognizes that as the agency grows along with its cascload, there is a need
           to constantly evaluate staffing models and work octivities. The agency has discussed
           with other court systems for many years the usefulness of a study on weighted case
           methodology and the associated costs with commissioning a study and implementing its
           recommendations. Under the current Departmental budget, and the agency's limited
           resources and personnel, we have not allocated the substantial financial resources
           required for such a study, prioritizing other agency needs. However, the agency will
           engage in a study to examine weighted case methodology, to include a process for
           trocking time that immigration judges spend on djfferent types of cases and work
           activities, as well as objective staffing models for the determination of staffing




U.S. Department of Justice                                                                               67
Office of the Inspector General
Evaluation and Inspections Division
           Memorandum for Jason R. Higley                                                      Page 9
           Subject: EOIR's Response to the OIG's Report: Managemenl of Immigralian
                    Cases and Appeals by the Executive Office for Immigration Review

            requirements and the allocation of positions among immigration courts. The agency will
            begin a caseload study during FY 2013.

           Recommendation 8: Consider seeking additional resaurces or reaf/oeating resources to
           reduce delays in the processing of appealsfar nan-detained aliens.

           [OI R partially   CODCUrs   in tbis reeommendation.

                   While the Report acknowledges that the Board of Immigration Appeals completed
           more appeals ofimmigration Judge decisions than it received, it also found that appeals
           involving non-detained aliens took long periods to complete and concludes that the
           difference between detained and non-detained processing times for appeals of
           Immigration Judge decisions is due to delays in paralegal review of non -detained cases.
           EOIR believes that the Report does not provide a complete picture and oversimplifies the
           resource implications of the Board's varied caseload.

                    While the Report notes that the Board gives priority to processing detained cases,
           the Report's narrow focus on non-detained Immigration Judge case appeals does not
           recognize the extent to which detained cases drive the workload of the Board and draw
           resources away from non-detained cases. Detained cases are labor intensive because they
           are urgent and fluctuate in volume according to DHS enforcement priorities and
           initiatives.

                   In addition, the Report only partially captures the Board's actual caseload because
           its analysis focuses solely on Immigration Judge case appeals. In addition to Immigration
           Judge case appeals, the Boud reviews the bond decisions of Immigration Judges, appeals
           from DHS immigrant visa petition decisions and other DHS decisions, motions to reopen
           and motions 10 reconsider Board decisions, anomey discipline decisions, recognition and
           accreditation decisions, and interlocutory appeals. These other maners comprise over half
           of the Board's workload. See EOIR FY 2011 Statistical Year Book, at TI.

                    A good example of the workload implications of the Board's varied caseload is
           appeals from DHS decisions. "These cases involve the same resource commitment as
           Immigration Judge case appeals, and they have risen both dramatically and enatically in
           the past decade. In fiscal year 2011, the Board received over 8,700 visa petition appeals,
           which constituted almost 25% of the Board's overall case receipts for FY 2011. See
           EOIR FY 2011 Statistical Year Book, at n. Incorporating these appeals into the Board's
           overall workload significantly impacts the pace of the Board's adjudication of non­
           detained Immigration Judge case appeals since, given the priority that the agency gives
           detained cases, the Board necessarily draws from resources allocated to non-detained
           appeals. Furthermore, it is difficult to put permanent workload management measures in
           place to address the DHS appeals due to the fact that the volume oflhese appeals is
           difficult to predict. For example. during the five-year period studied, the Board




U.S. Department of Justice                                                                               68
Office of the Inspector General
Evaluation and Inspections Division
            Memorandum for Jason R. Higley                                                     Page 10
            Subject: E01R's Response to the OIG's Report: Management o/Immigratlon
                    Cases and Appeals by the Executive Office/or Immigration Review

            experienced dramatic fluctuations in the numbers of receipts of visa pelition appeals (FY
            2006 - 5,918; FY 2007 - 3,980; FY 2008 - 2,851; FY 2009 - 3,986; FY 2010 - 8,584;
            FY 20 11- 8,705). See EOiR FY 2010 and 2011 Statistical Year Books, at 1'2.

                    The Board strives to process as many cases as it can, within the confines of
            fairness, agency priorities and existing resources. To that end, the Board has found
            through experience thai its attorneys and Board Members can sustain a processing
            workload of roughly 4,500 assigned cases at anyone time. Thus, as the Board completes
            cases, il assigns additional cases to its attorneys and Board Members ~ thereby
            maintaining a peak production that can balance volume and due process.

                   Thus, the Report should not conclude that adding paralegals is what is needed to
           improve non-detained case processing lime. More paralegals processing more cases will
           not result in faster case completion rates. Additional paralegal resources are of limited
           value without a corresponding increase in other personnel ~ legal stafTto draft orders,
           Board Members to sign orders, and administrative personnel 10 stafTlhe process.
           Therdore, EOIR does not believe thai a reallocation of resources would assist the Board
           in processing cases quicker. Instead, in order for Board cases to be processed in II shorter
           amount of time, additional paralegals, legal stalT, and other personnel are required. EOIR
           will continue to ask for additional resources in its next budgetary request, as it has for
           many years.

           Recommendation 9: Improve its collecting, tracking, and reporting of BlA appeal
           slaJislics 10 accllraleiy reflect acilla/ appeal pracenlng tlmn.

           EOIR concurs with this recommendation.

                   EOiR believes that in order for the Board to increase its performance, it must
           continue its current success in processing more cases than it receives, resulting in a
           reduction oflhe pending caseload. Such reduction in the pending caseload will result in
           fewer numbers of cases awaiting assignment to attorneys and Board Members, allowing
           cases to be assigned more quickly. For that reason the monthly tracking of the pending
           caseload number is one of the main perfonnance measures Board managers utilize.
           However, to the eXlent it is the Report's conclusion that it would also be useful to the
           public to report total appeal processing time, the agency is willing to report this
           infonnation by the end of FY 201 3.




U.S. Department of Justice                                                                                69
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX VI: OIG ANALYSIS OF EOIR RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Executive Office for Immigration Review (EOIR) for its comment.
EOIR’s response is included in Appendix V to this report. The OIG’s
analysis of EOIR’s response and the actions necessary to close the
recommendations are discussed below.

GENERAL COMMENTS

       In its response, EOIR states that our conclusion that its external
reporting could be clearer is well taken and EOIR intends to report the
additional information recommended by the report. EOIR, however,
disagrees with our conclusion that EOIR’s public reports “overstate” the
actual accomplishments of the immigration courts. EOIR states that
since the terms “matter,” “receipt” and “completion” are clearly defined in
its Statistical Year Book, the amount of work received and completed by
the courts is not overstated.

      As we found in our review, EOIR counts completions when case
actions occur that do not result in decisions to order the removal of
aliens from the United States or to grant them relief from removal. We
concluded that by reporting these actions as completions, EOIR obscures
the actual number of immigration cases it receives and completes each
year. Further, EOIR’s method for counting case length underreports
actual case processing times and results in EOIR counting certain cases
as meeting its completion goals when, in fact, they did not. When cases
are moved from one immigration court to another, each court’s
processing time is considered separately when assessing whether the
case processing time met goals.

      We recognize that there may be legitimate management reasons for
tracking the number of proceedings completed within a particular
timeframe at individual courts.73 However, contrary to EOIR’s claim in its
response that these “reports were never intended to promote the agency’s
accomplishments,” we found that EOIR used the results of its case
completion goal reports in the Department’s annual Performance and

       73   EOIR’s contention in its response that case completions as currently
measured are helpful to EOIR in measuring individual court workload and performance
is itself questionable given the way EOIR counts the data. For example, an immigration
court that transfers a case to another venue within the case completion goal time period
receives equal credit for meeting EOIR’s performance goals as a court that substantively
resolves the case within the same case completion goal time period.


U.S. Department of Justice                                                           70
Office of the Inspector General
Evaluation and Inspections Division
Accountability Report and congressional budget submission. Further, we
found it did so without adequate explanation of what the reports were
measuring.74 We concluded that the use of the information in this manner
overstated EOIR’s accomplishments. Moreover, we found that by tracking
cases in this manner, EOIR itself does not have an accurate measure of
the total time taken to render a decision on removability in each case.

       EOIR also questioned our conclusion that as time spent processing
cases increases, the Department of Justice's costs rise, along with the
costs for those representing the aliens. Because there are direct and
indirect costs associated with adjudicating each immigration case, we
believe it is self-evident and reasonable to conclude that as the amount
of time the court takes to adjudicate a case rises, the associated costs
also rise. Similarly, we believe it is self-evident and reasonable to
conclude that delays in detained case processing increase associated
DHS detention costs.

      Below we provide the summary of actions necessary to close this
report.

Recommendation 1: EOIR improve reporting of immigration court data
to distinguish decisions on the removal of aliens from other case
activities and reflect actual case length even when more than one court is
involved.

       Status: Resolved.

      EOIR Response: EOIR concurred with this recommendation and
stated it will begin reporting immigration court data to distinguish
decisions on the removal of aliens from other case activities and reflect
case length by the end of FY 2013.

       OIG Analysis: EOIR's planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by March 29, 2013.

       74  For example, the definitions of the terms “completion” and “proceeding” are
fundamental to how EOIR measures accomplishments, but they are not explained in
the Performance and Accountability Report or congressional budget submission. The
term “completion” is explained in the Statistical Year Book, but does not appear until
the fourth chapter, well after numerous completion statistics have been presented. The
term “proceeding” is defined in the Statistical Year Book’s glossary as “the legal process
conducted before the immigration court and Board of Immigration Appeals.” We found
this definition to be lacking in clarity and easily subject to being misinterpreted as
including the entire proceeding from EOIR’s initial receipt of the case until EOIR
rendered its final decision.


U.S. Department of Justice                                                             71
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 2: EOIR eliminate case exemptions from completion
goals to reflect actual case length, but identify case delays that EOIR
considers outside the control of immigration judges.

       Status: Resolved.

      EOIR Response: EOIR concurred with this recommendation and
stated it will begin reporting this information publicly by the end of FY
2013.

       OIG Analysis: EOIR's planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by March 29, 2013.

Recommendation 3: EOIR develop immigration court case completion
goals for non-detained cases.

       Status: Resolved.

       EOIR Response: EOIR partially concurred with the
recommendation. EOIR states that it must examine how the information
can be used to assist management before committing to establishing
these goals. As a result, EOIR proposes an alternative in which it will
examine whether establishing these goals would assist in measuring
agency performance and will serve as a useful management tool for
identifying the need for efficiencies in certain areas. EOIR will complete
this assessment by the end of FY 2013.

      OIG Analysis: We believe that having completion goals for all
cases, regardless of whether the alien is detained, would assist EOIR in
monitoring its performance in resolving cases in a timely manner.
However, we believe it is reasonable that EOIR first examine how it would
use the goals before developing case completion goals for non-detained
cases. We therefore have determined that EOIR’s planned actions are
responsive to our recommendation. Please provide documentation on the
status of this effort by March 29, 2013.

Recommendation 4: EOIR analyze reasons for continuances and
develop guidance that provides immigration judges with standards and
guidelines for granting continuances to avoid unnecessary delays.

       Status: Unresolved.

     EOIR Response: EOIR partially concurred with this
recommendation. EOIR stated that the OIG inferred that EOIR could

U.S. Department of Justice                                              72
Office of the Inspector General
Evaluation and Inspections Division
place clear and definite limits on continuances across all cases. As an
alternative to the recommendation, EOIR suggested that it develop
training for immigration judges that provides them with an update on
case law related to continuances.

      OIG Analysis: EOIR’s planned actions are partially responsive to
our recommendation. We believe EOIR’s plan to develop training for
immigration judges that provides them with an update on case law related
to continuances would have some benefit. However, we do not agree with
EOIR’s claim in its response that the report recommends that EOIR issue
a “mechanized policy” on continuances or guidelines for immigration
judges that “pre-determine” the reasonableness of a continuance. To the
contrary, our report recognizes that continuance decisions are complex
and fact-dependent. Rather, as indicated in the report, we believe that
even if immigration judges are appropriately following case law in ruling on
continuances, providing guidance on the use of continuances and what is
reasonable in terms of the number and length of continuances also would
be beneficial for immigration judges. Thus, EOIR should examine the
reasons for continuances and develop related guidance to further assist
immigration judges in making decisions on granting continuances. Please
provide a response on EOIR’s planned actions to resolve this
recommendation by January 18, 2013.

Recommendations 5, 6, and 7: EOIR develop a process for tracking
time that immigration judges spend on different types of cases and work
activities.

EOIR collect and track data on its use of staffing details of judges.

EOIR develop an objective staffing model to assist in determining staffing
requirements and the allocation of positions among immigration courts.

       Status: Resolved.

       EOIR Response: EOIR concurred with these recommendations.
EOIR stated that it will institute a study on weighted case methodology,
which will include a process for tracking time that immigration judges
spend on different types of cases and work activities, as well as objective
staffing models for the determination of staffing requirements and the
allocation of positions among immigration courts. The agency will begin
a caseload study during FY 2013.

       OIG Analysis: EOIR's planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by March 29, 2013.

U.S. Department of Justice                                                73
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 8: EOIR consider seeking additional resources or
reallocating resources to reduce delays in the processing of appeals for
non-detained aliens.

       Status: Unresolved.

      EOIR Response: EOIR partially concurred with this
recommendation. EOIR stated that it does not believe a reallocation of
resources would assist in processing cases quicker. Instead, it believes
additional paralegals, legal staff, and other personnel are required. It
proposes asking for additional resources in its next budgetary request.

      OIG Analysis: EOIR’s planned actions are not fully responsive to
our recommendation. In EOIR’s response, it states that the OIG should
not have concluded that adding paralegals is what is needed to improve
the appeal processing time for non-detained aliens. However, our report
does not make that conclusion. Although we found that the paralegal
review process for detained aliens averaged only 8 days compared to the
294 days for non-detained aliens, we recommended that EOIR re­
examine its process and all of its resource allocations (not just for
paralegals) in non-detained cases to determine the appropriate number
of personnel that are needed to process those cases more quickly. While
we understand that EOIR intends to seek additional resources, we also
believe that EOIR should take all possible steps to maximize the use of
the resources it has received. Please provide documentation on the
status of this effort by January 18, 2013.

Recommendation 9: EOIR improve its collecting, tracking, and
reporting of BIA appeal statistics to accurately reflect actual appeal
processing times.

       Status: Resolved.

      EOIR Response: EOIR concurred with this recommendation.
EOIR stated if the OIG concluded that it would also be useful to the
public to report total appeal processing time, the agency is willing to
report it and will do so by the end of FY 2013.

       OIG Analysis: EOIR's planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by March 29, 2013.




U.S. Department of Justice                                                 74
Office of the Inspector General
Evaluation and Inspections Division
